    Fiscal Year
       2013


       Military
    Retirement
          Fund
       Audited
      Financial
        Report




     DECEMBER 9, 2013
i
                                                        Table of Contents

Management’s Discussion and Analysis ......................................................................................1

   REPORTING ENTITY ............................................................................................................... 1

   THE FUND ................................................................................................................................. 2
     General Benefit Information ................................................................................................... 2
     Non-Disability Retirement from Active Service .................................................................... 3
     Disability Retirement .............................................................................................................. 6
     Reserve Retirement ................................................................................................................. 7
     Survivor Benefits .................................................................................................................... 8
     Temporary Early Retirement Authority (TERA) .................................................................... 9
     Cost-of-Living Increase ........................................................................................................ 10

   FUND RELATIONSHIPS ........................................................................................................ 10
     Department of Veterans Affairs Benefits ............................................................................. 10
     Other Federal Service ........................................................................................................... 11
     Retired Pay to Military Compensation ................................................................................. 11
     Social Security Benefits ........................................................................................................ 12

   SIGNIFICANT CHANGES...................................................................................................... 13
     From FY 2012 to FY 2013.................................................................................................... 13
     For FY 2014 .......................................................................................................................... 13

   PERFORMANCE MEASURES............................................................................................... 13

   PROJECTED LONG-TERM HEALTH OF THE FUND ........................................................ 14
     Unified Budget of the Federal Government.......................................................................... 15
     20-Year Projection ................................................................................................................ 16
     Expected Problems................................................................................................................ 17
     Investments ........................................................................................................................... 18
     Management Oversight ......................................................................................................... 18
     Anticipated Changes between the Expected and Actual Investment Rate of Return ........... 19

   FINANCIAL PERFORMANCE OVERVIEW ........................................................................ 20
     Financial Data ....................................................................................................................... 20
     Assets .................................................................................................................................... 21
     Liabilities .............................................................................................................................. 22

   MANAGEMENT ASSURANCES........................................................................................... 23

   IMPROPER PAYMENTS INFORMATION ACT OF 2002 (PUBLIC LAW NO. 107-300) . 24

   LIMITATIONS OF THE FINANCIAL STATEMENTS ........................................................ 25



                                                                        i
DoD Endorsement of Auditor’s Opinion……………………………………………………...26


DoD Independent Auditor's Report…………………………………………………………...28


FY 2013 Military Retirement Fund Principal Financial Statements ......................................36
  BALANCE SHEETS ................................................................................................................ 37
  STATEMENTS OF NET COST .............................................................................................. 38
  STATEMENTS OF CHANGES IN NET POSITION ............................................................. 39
  STATEMENTS OF BUDGETARY RESOURCES................................................................. 40

FY 2013 Military Retirement Fund Footnotes to the Principal Financial Statements..........41
  Note 1. Significant Accounting Policies ................................................................................... 42
  Note 2. Nonentity Assets .......................................................................................................... 45
  Note 3. Fund Balance with Treasury ........................................................................................ 46
  Note 4. Investments and Related Interest ................................................................................. 47
  Note 5. Accounts Receivable .................................................................................................... 50
  Note 6. Liabilities Not Covered by Budgetary Resources ........................................................ 50
  Note 7. Military Retirement Benefit Liabilities ........................................................................ 51
  Note 8. Other Liabilities ........................................................................................................... 56
  Note 9. Commitments and Contingencies ................................................................................ 57
  Note 10. Disclosures Related to the Statements of Net Cost .................................................... 57
  Note 11. Disclosures Related to the Statements of Changes in Net Position ........................... 58
  Note 12. Disclosures Related to the Statements of Budgetary Resources ................................ 59
  Note 13. Reconciliation of Net Cost of Operations to Budget ................................................. 60
  Note 14. Subsequent Events ..................................................................................................... 61
  Note 15. Restatements .............................................................................................................. 61




                                                                    ii
Management’s Discussion and Analysis_________________________________

                        Management’s Discussion and Analysis
                   Summary of the Military Retirement System
                 For the Years Ended September 30, 2013 and 2012

REPORTING ENTITY
The reporting entity is the Department of Defense (DoD) Military Retirement Fund (MRF, or
“Fund”). The Military Retirement System (MRS) provides benefits for military members’
retirement from active duty and the reserves, disability retirement benefits, and survivor benefits.
The MRF accumulates funds to finance, on an actuarial basis, the liabilities of DoD under
military retirement and survivor benefit programs.

Within DoD, the operations of the MRS are jointly overseen by the:
       (1) Office of the Under Secretary of Defense (Comptroller) (OUSD(C)),
       (2) Defense Finance and Accounting Service (DFAS), and
       (3) Office of the Under Secretary of Defense for Personnel and Readiness
           (OUSD(P&R)).

DFAS is responsible for the accounting, investing, payment of benefits, and reporting of the
MRF. The DoD Office of the Actuary (OACT) within OUSD(P&R) calculates the actuarial
liability of the MRF. The Office of Military Personnel Policy within OUSD(P&R) issues policy
related to MRS benefits. While the MRF does not have a specified Chief Financial Officer
(CFO), the OUSD(C) has oversight of the MRF's financial reporting processes.

The Fund was established by Public Law (P.L.) 98-94 (currently Chapter 74 of Title 10, U.S.C.)
starting October 1, 1984. The Fund is overseen by an independent, three-member Secretary of
Defense-appointed DoD Board of Actuaries (“Board”). The Board is required to review
valuations of the MRS, determine the method of amortizing unfunded liabilities, report annually
to the Secretary of Defense, and report to the President and the Congress at least once every four
years on the status of the MRF. OACT provides all technical and administrative support to the
Board.

In Fiscal Year (FY) 2013, the MRF paid out approximately $54.7 billion in benefits to military
retirees and survivors. In FY 2012, the MRF paid out approximately $52.5 billion.

The Fund receives income from three sources: (1) normal cost payments from the Services and
U.S. Treasury; (2) payment from the U.S. Treasury to amortize the unfunded liability; and (3)
investment income.

During FY 2013, the MRF received approximately $20.5 billion in normal cost payments, a
$74.5 billion payment from the U.S. Treasury consisting of both an amortization and concurrent
receipt payment, and earned approximately $15.0 billion in investment income, net of
premium/discount amortization and accrued inflation compensation. In comparison, in FY 2012
the MRF received approximately $21.9 billion in normal cost payments, a $70.1 billion payment
from the U.S. Treasury consisting of both an amortization and concurrent receipt payment, and



                                                 1
Management’s Discussion and Analysis_________________________________

earned approximately $12.5 billion in investment income, net of premium/discount amortization
and accrued inflation compensation (see the Financial Performance Overview section for an
explanation of the changes).

THE FUND
General Benefit Information
The MRS covers members of the Army, Navy, Marine Corps, and Air Force; however, most of
the provisions also apply to retirement systems for uniformed service members of the Coast
Guard (administered by the Department of Homeland Security), the Public Health Service
(administered by the Department of Health and Human Services), and the National Oceanic and
Atmospheric Administration (administered by the Department of Commerce). This report
applies only to members in plans administered by the DoD.

The MRS is a funded, noncontributory, defined benefit plan that includes non-disability retired
pay, disability retired pay, survivor annuity programs, and Combat-Related Special
Compensation. The Service Secretaries may approve immediate non-disability retired pay at any
age with credit of at least 20 years of active duty service. Reserve retirees must be at least 60
years old and have at least 20 qualifying years of service before retired pay commences;
however, in some cases, the age can be less than 60 if the reservist performs certain types of
active service. P.L. 110-181 provides for a 90-day reduction in the reserve retirement age from
age 60 for every 3 months of certain active duty service served within a fiscal year for service
after January 28, 2008 (not below age 50). There is no vesting of benefits before non-disabled
retirement.

There are distinct non-disability benefit formulas related to three populations within the MRS.

   1) Final Pay: Military personnel who first became members of a uniformed service before
      September 8, 1980, have retired pay equal to final basic pay times a multiplier (final
      basic pay refers to terminal pay of the member). The multiplier is equal to the product of
      2.5% and years of service.
   2) High-3: If the retiree first became a member of a uniformed service on or after September
      8, 1980, the average of the highest 36 months of basic pay is used instead of final basic
      pay.
   3) Career Status Bonus (CSB)/Redux: Those who first became a member of a uniformed
      service on or after August 1, 1986, may choose between a High-3 and CSB/Redux
      retirement. Those who elect CSB/Redux also have retired pay computed on a base of the
      average of their highest 36 months of basic pay and receive the CSB outlined below;
      however, their retired pay is subject to a penalty if they retire with less than 30 years of
      service; at age 62, their retired pay is recomputed without the penalty. Members make
      this election during their fifteenth year of service and may receive the CSB of $30,000 in
      either a lump sum or installments. Those who elect CSB/Redux must remain
      continuously on active duty until they complete 20 years of active duty service or forfeit
      a portion of the $30,000 (exceptions include death and disability retirement).




                                                2
Management’s Discussion and Analysis_________________________________

Retiree and annuitant pay are automatically adjusted annually by cost-of-living adjustments
(COLAs) to protect the purchasing power of the initial benefit. Members first entering a
uniformed service before August 1, 1986, and those entering on or after that date who do not
elect CSB have their benefits adjusted by the percentage increase in the Consumer Price Index
(CPI). This is commonly referred to as “full CPI protection.” Benefits for members who entered
on or after August 1, 1986, and who elect CSB are increased by the CPI minus 1% (except when
the CPI increase is less than or equal to 1%, when it is increased by the full CPI). At age 62, or
when the member would have been age 62 (for a survivor annuity), the benefits are restored to
the amount that would have been payable had the full COLA been in effect. This restoral is in
combination with that described in the previous paragraph; however, after this restoral, partial
indexing (CPI minus 1%) continues for future benefit payments.

The FY 2011 National Defense Authorization Act (NDAA), P.L. 111-383, required that amounts
of retired pay due to a retired member of the uniformed services shall be paid on the first day of
each month beginning after the month in which the right to such pay accrues. This means that
when the first day of the month falls on a non-business day (weekend / holiday), the pay must be
paid the preceding business day. The law does not apply to survivor annuitant pay and Combat-
Related Special Compensation. It will result in retirees receiving 13 payments in some fiscal
years and 11 payments in others, with 12 payments occurring in most fiscal years.

Non-Disability Retirement from Active Service
The current retirement system allows for voluntary retirement at any age upon completion of at
least 20 years of service, subject to Service Secretary’s approval. The military retiree
immediately receives retired pay calculated as base pay multiplied by the specified factor. “Base
pay” is equal to terminal basic pay if the retiree first became a member of a uniformed service
before September 8, 1980; for all other members, “base pay” is equal to the average of the
highest 36 months of basic pay. The factor is equal to 2.5% multiplied by the number of years of
service, rounded down to the nearest month.

Members who first entered a uniformed service on or after August 1, 1986, who elect
CSB/Redux and who retire with less than 30 years of service, receive a temporary penalty until
they reach the age of 62. This penalty reduces the factor used to compute retired pay by one
percentage point for each full year of service under 30 years. For example, the multiplier for a
20-year retiree would be 40% (50% minus 10%, where 50% equals 20 years multiplied by 2.5%)
of base pay. At age 62, the retired pay is recomputed with the penalty removed. See Tables 1
and 2.




                                                3
Management’s Discussion and Analysis_________________________________

                                     TABLE 1
                    MILITARY RETIREMENT SYSTEM PROPERTIES
                (FOR NONDISABILITY RETIREMENT FROM ACTIVE DUTY)

   Benefit                                                            Career Status Bonus
   System                Final Pay             High-3 (HI-3)             (CSB)/Redux
                                           First became member
                                           of a uniformed service
                                           on or after September      First became member of
                    First became member     8, 1980 and prior to     a uniformed service on or
  Applies to            of a uniformed       July 31, 1986, and      after August 1, 1986 and
 Member Who:            service before     members joining after      elect to accept the CSB
                     September 8, 1980       July 31, 1986 who         with additional 5-year
                                           elect not to accept the       service obligation
                                             CSB at the 15-year
                                                 anniversary
  Retired Pay
                                           Highest 36 months of       Highest 36 months of
  Computation       Final basic pay rate
                                              basic pay rate             basic pay rate
     Basis
                                                                      2.5% per year of service
                      2.5% per year of        2.5% per year of        less 1% for each year of
   Multiplier
                          service                 service                service less than 30
                                                                         (restored at age 62)
 Cost-of-Living     Full Clerical Worker                               Full CPI-W minus 1%
  Adjustment          Consumer Price             Full CPI-W          (one-time catch-up at age
  Mechanism           Index (CPI-W)                                               62)
                                                                      $30,000 CSB payable at
                                                                     15-year anniversary upon
   Lump Sum
                             --                      --                 assumption of 5-year
     Bonus
                                                                       obligation to remain on
                                                                       continuous active duty




                                             4
Management’s Discussion and Analysis_________________________________

                                     TABLE 2
                    MILITARY RETIREMENT SYSTEM MULTIPLIERS
                 (FOR NONDISABILITY RETIREMENT FROM ACTIVE DUTY)

                Years of   Final Pay/HI-3            CSB/Redux Multiplier
                Service      Multiplier       Before Age 62     After Age 62
                   20           50.0%             40.0%                50.0%
                   21            52.5              43.5                 52.5
                   22            55.0              47.0                 55.0
                   23            57.5              50.5                 57.5
                   24            60.0              54.0                 60.0
                   25            62.5              57.5                 62.5
                   26            65.0              61.0                 65.0
                   27            67.5              64.5                 67.5
                   28            70.0              68.0                 70.0
                   29            72.5              71.5                 72.5
                   30            75.0              75.0                 75.0
                   31            77.5              77.5                 77.5
                   32            80.0              80.0                 80.0
                   33            82.5              82.5                 82.5
                   34            85.0              85.0                 85.0
                   35            87.5              87.5                 87.5
                   36            90.0              90.0                 90.0
                   37            92.5              92.5                 92.5
                   38            95.0              95.0                 95.0
                   39            97.5              97.5                 97.5
                   40           100.0             100.0                100.0
                   41           102.5             102.5                102.5
                   42           105.0             105.0                105.0


As of September 30, 2013, there were approximately 1.47 million non-disability retirees from
active duty receiving retired pay. In FY 2013, non-disability retirees were paid approximately
$43.20 billion.

As of September 30, 2012, there were approximately 1.47 million non-disability retirees from
active duty receiving retired pay. In FY 2012, non-disability retirees were paid approximately
$42.34 billion.




                                              5
Management’s Discussion and Analysis_________________________________

Disability Retirement
A military member in an active component or on active duty for more than 30 days who is found
unfit for duty is entitled to disability retired pay if the disability:

   1)   is incurred while entitled to basic pay;
   2)   is neither the result of the member's intentional misconduct nor willful neglect;
   3)   was not incurred during a period of unauthorized absence; and
   4)   either:
             a. the member has at least 20 years of service; or
             b. the disability is rated at least 30% under the Department of Veterans Affairs (VA)
                Schedule of Rating Disabilities and one of the following conditions is met:
                      i. the disability was not noted at the time of the member’s entrance on active
                         duty (unless clear and unmistakable evidence demonstrates that the
                         disability existed before the member’s entrance on active duty and was not
                         aggravated by active military service);
                     ii. the disability is the proximate result of performing active duty;
                    iii. the disability was incurred in the line of duty in time of war or national
                         emergency; or
                    iv. the disability was incurred in the line of duty after September 14, 1978.

Under certain conditions, members on active duty for 30 days or less or on inactive-duty training
are also entitled to disability retired pay for disabilities incurred or aggravated in the line of duty.

In disability retirement, the member may elect to receive retired pay equal to either:

   1) the accrued non-disability retirement benefit regardless of eligibility to retire; or
   2) the computed base pay multiplied by the rated percent of disability.

Except for members with more than 30 years of service, the benefit cannot exceed 75% of base
pay. The excess of the accrued non-disability retirement benefit over the disability pay is subject
to federal income taxes if the member had service on or before September 24, 1975. Otherwise,
disability retired pay is tax-exempt only for those disabilities that are combat or hazardous duty
related. The base pay is equal to final basic pay if the retiree first became a member of a
uniformed service before September 8, 1980; otherwise, base pay is equal to the average of the
highest 36 months of basic pay.

Members whose disabilities may not be permanent are placed on a temporary-disability retired
list and receive disability retirement pay just as if they were permanently disabled; however, the
member must be physically examined every 18 months for any change in disability, with a final
determination made within five years. The temporary disability pay is calculated like the
permanent disability retired pay, except the payment cannot be less than 50% of base pay.

Members who elected the CSB/Redux retirement option, but who retired for disability, are not
subject to the reduced CSB/Redux retired pay multiplier and are awarded retired pay based on
the disability retirement rules outlined above. However, such members continue to be subject to
the reduced CPI (with age 62 restoral) as Career Status Bonus recipients.



                                                   6
Management’s Discussion and Analysis_________________________________

Recent Congressional action has been directed toward the care of disabled retirees and veterans.
P.L. 110-181 established the Physical Disability Board of Review (PDBR). The PDBR has the
authority to reexamine the files of veterans medically separated with ratings under 30% between
September 11, 2001, and December 31, 2009, and potentially offer disability retirements. The
PDBR is expected to review files for approximately 77,000 veterans.

As of September 30, 2013, there were approximately 102,000 disability retirees receiving retired
pay. In FY 2013, disability retirees were paid approximately $1.45 billion.

As of September 30, 2012, there were approximately 96,000 disability retirees receiving retired
pay. In FY 2012, disability retirees were paid approximately $1.39 billion.

Reserve Retirement
Members of the reserves may retire after 20 qualifying years of creditable service; however,
reserve retired pay is not payable until age 60 unless the member performs certain types of active
duty or active service specified in NDAA 2008 (P.L. 110-181). In these cases, the age at which
the reserve retiree may collect is reduced below age 60 by 3 months for every 90 days of such
service performed within a fiscal year. However, the age cannot go below 50, and eligibility for
subsidized retiree health benefits remains at age 60 even if the eligibility age for receipt of retired
pay is affected.

Reserve retired pay is computed as base pay multiplied by 2.5% for each year of service. If the
reservist was first a member of a uniformed service before September 8, 1980, base pay is
defined as the active duty basic pay in effect for the retiree’s grade and years of service at the
time retired pay begins. If the reservist first became a member of the armed services on or after
September 8, 1980, base pay is the average basic pay for the member’s grade in the highest 36
months computed as if he/she was on active duty for the entire period preceding retired pay
commencement. The years of service are determined using a point system, where 360 points
convert to one year of service. Typically, one point is awarded for one day of active duty service
(e.g. active duty training) or one inactive duty training (IDT) drill attendance. Reservists often
perform two IDT periods in one day, thereby receiving two retirement points per day. In
addition, 15 points are awarded for completion of one year’s membership in a reserve
component. A creditable year of service is one in which the member earned at least 50 points. A
member generally cannot retire with less than 20 creditable years, although points earned in non-
creditable years are used in the retirement calculation.

Beginning with years of service that include October 30, 2007, non-active duty points are limited
to no more than 130 in any one year. Lower point limitations have applied in the past.

As of September 30, 2013, there were approximately 382,000 reserve retirees receiving retired
pay. In FY 2013, reserve retirees were paid approximately $5.68 billion.

As of September 30, 2012, there were approximately 374,000 reserve retirees receiving retired
pay. In FY 2012, reserve retirees were paid approximately $5.44 billion.




                                                  7
Management’s Discussion and Analysis_________________________________

Survivor Benefits
Legislation originating in 1953 provided optional survivor benefits, later referred to as the
Retired Servicemen’s Family Protection Plan (RSFPP). The plan proved to be expensive to the
participants and inadequate, since the survivor annuities were not adjusted for inflation and could
not exceed 50% of retired pay. RSFPP was designed to be self-supporting in the sense that, on
average, the present value of the premiums equaled the present value of the survivor annuity.

On September 21, 1972, RSFPP was replaced by the Survivor Benefit Plan (SBP) for new
retirees. RSFPP still covers those servicemen retired before 1972 who did not convert to the new
plan or who retained RSFPP in conjunction with SBP.

Retired pay is reduced, before taxes, for the member’s cost of SBP. Total SBP costs are shared
by the government and the retiree, so the reductions in retired pay are only a portion of the total
cost of the SBP program.

The SBP survivor annuity is 55% of the member’s base amount. The base amount is elected by
the member, but cannot be less than $300 or more than the member’s full gross monthly retired
pay, with one exception. If the member elects CSB/Redux and is subject to a penalty for service
under 30 years in the calculation of retired pay, the maximum base amount is equal to the full
retired pay without the penalty. However, the annuity for a survivor of a CSB/Redux retiree is
subject to the reduced COLA.

When SBP started in 1972, survivor benefits for those 62 and older were reduced by the
estimated amount of Social Security for which the survivor would be eligible based on the
member’s military pay. In 1985, that reduction formula was changed so all annuitants 62 and
over received a reduced flat rate of 35% of the member’s base amount. Beginning October 1,
2005, the reduced rate at age 62 was phased out in 5% increments. On April 1, 2008, the
survivor benefit reduction at age 62 was fully eliminated and the rate of 55% of the member’s
elected base amount became the standard for all survivors, regardless of age.

Prior to FY 1987, the survivor annuity benefit for a surviving spouse who remarried before age
60 was suspended. In FY 1987, SBP changed to suspend benefits when the remarriage occurred
at the age of 55. If the remarriage ends in divorce or death, the annuity is reinstated.

Members who died on active duty, or in the line of duty on or after September 11, 2001, are
assumed to have retired with full disability on the day they died and to have elected full SBP
coverage for spouses, former spouses, and/or children. Insurable interest elections may be
applicable in some cases. These benefits have been improved and expanded over the history of
the program.

The surviving spouse (or dependent children, if there is no surviving spouse or if the spouse
subsequently dies) of a reservist who dies in the line of duty while performing IDT service is
entitled to an SBP annuity based on the reservist’s years of service.

SBP annuities generally are reduced by any VA survivor benefits (Dependency and Indemnity
Compensation (DIC)), and all premiums relating to the reductions are returned to the survivor.



                                                8
Management’s Discussion and Analysis_________________________________

The FY 2008 NDAA enacted, and the Family Smoking Prevention and Tobacco Control Act of
2009 (P.L. 111-31) revised, a temporary Special Survivor Indemnity Allowance (SSIA) that pays
a monthly amount ($50 in FY 2009 grading up to $310 in FY 2017) to survivors with a DIC
offset. The authority for the allowance ends in 2017.

The relationship between SBP and DIC has been the subject of litigation in the U.S. Court of
Appeals. As a result of the “Sharp Case” ruling, the SBP benefit of survivors with entitlement to
both DIC and SBP who remarry after age 57 is not reduced by DIC benefits received.

As with retired pay, SBP annuities and premiums are increased annually with COLAs. These
COLAs are either full or partial CPI increases, depending on the benefit formula covering the
member. If a member who elected the CSB dies before the age of 62, the survivor’s benefit is
subject to partial COLAs and his/her annuity increased, on what would have been the member’s
62nd birthday, to the amount that would have been payable had full COLAs been in effect.
Partial COLAs continue annually thereafter.

For reserve retirees, the retired pay reductions applicable under SBP take effect for survivor
coverage after a reservist turns 60 (or earlier if they have certain active service) and begins to
receive retired pay. The Reserve Component Survivor Benefit Plan (RCSBP) provides annuities
to survivors of reservists who die before age 60 (or earlier if they have certain active service)
provided they attained 20 years of qualified service and elected to participate in the program (or
were within their 90-day election window after receiving a letter confirming 20 years of credible
service). However, if the death occurs either on active or inactive duty as described above, the
survivor receives an annuity under SBP. The cost of RCSBP is borne completely by reservists
through deductions from retired pay.

Beginning October 1, 2008, a “paid-up” provision eliminated the reduction in retired pay for
premiums for SBP, RCSBP, and RSFPP coverage for participants age 70 or older whose retired
pay had been reduced for at least 360 months.

On June 26, 2013, the Supreme Court ruled that Section 3 of the Defense of Marriage Act
(DOMA) is unconstitutional. In complying with this decision, DoD has drafted guidance to
make SBP benefits available to same-sex spouses of military members and retirees.

As of September 30, 2013, there were approximately 290,000 survivors of military members
receiving annuity payments. In FY 2013, survivors were paid approximately $3.76 billion.

As of September 30, 2012, there were approximately 293,000 survivors of military members
receiving annuity payments. In FY 2012, survivors were paid approximately $3.72 billion.

Temporary Early Retirement Authority (TERA)
The FY 1993 NDAA (P.L. 102-484) granted temporary authority for the military services to
offer early retirements to members with more than 15 but less than 20 years of service. The
retired pay was calculated in the usual way, except that there was a reduction of 1% for every
year below 20 years of service. Part or all of this reduction can be restored at age 62 if the
retired member works in a qualified public service job during the period from the date of


                                                9
Management’s Discussion and Analysis_________________________________

retirement to the date on which the retiree would have completed 20 years of service. Unlike
members who leave military service before 20 years with Voluntary Separation Incentives or
Special Separation Benefits, these early retirees are generally treated like regular military retirees
for the purposes of other retirement benefits. This authority expired on September 1, 2002.

The FY 2012 NDAA (P.L. 112-81) reinstated TERA from January 2012 through December
2018, but without the qualified public service provision. The reinstatement of TERA is on a
much smaller scale than the FY 1993 authority.

As of September 30, 2013, there were approximately 58,000 TERA retirees receiving retired
pay. In FY 2013, TERA retirees were paid approximately $974 million.

As of September 30, 2012, there were approximately 57,000 TERA retirees receiving retired
pay. In FY 2012, TERA retirees were paid approximately $944 million.

Cost-of-Living Increase
All non-disability retirement, disability retirement, and most survivor annuities are adjusted
annually for inflation. COLAs are automatically scheduled to occur every 12 months, on
December 1, to be reflected in checks issued at the beginning of January.

The “full” COLA, effective December 1, is computed by calculating the percentage increase in
the average CPI from the third quarter of the prior calendar year to the third quarter of the current
calendar year. The increase is based on the Urban Wage Earner and Clerical Worker Consumer
Price Index (CPI-W) and is rounded to the nearest tenth of one percent. Many members receive
a “partial” COLA on December 1 of their first year of retirement to reflect the fact that they were
not retired for the full year. Members under the Final Pay benefit system may receive an
additional one-time COLA adjustment in the first year of retirement to reflect the fact that an
earlier retirement date would have been beneficial for them.

The benefits of retirees (and most survivors) are increased annually with the full COLA, except
for those first entering the armed services on or after August 1, 1986, who elect the $30,000
CSB. Their benefits are increased annually with a partial COLA equal to the full COLA minus
1% (except if the full COLA is less than or equal to 1%). A one-time restoral is given to a partial
COLA recipient on the first day of the month after the retiree’s 62nd birthday. At this time,
retired pay (or the survivor benefit, if the retiree is deceased) is increased to the amount that
would have been payable had full COLAs been in effect. Annual partial COLAs continue after
this restoral.

FUND RELATIONSHIPS
Department of Veterans Affairs Benefits
The VA provides compensation for Service-connected and certain non-Service-connected
disabilities. These VA benefits can be in place of or in combination with DoD retired pay, but
through December 31, 2003, were not fully additive. Since VA benefits are exempt from federal
income taxes, it is often to the advantage of a member to elect them. Through calendar year



                                                 10
Management’s Discussion and Analysis_________________________________

2003, retired pay earned from the DoD for military service was offset by any payment received
from VA for a VA-rated disability. Beginning with NDAA 2004 (P.L. 108-136), a series of
legislation has been enacted that increasingly reduces or eliminates the offset to military retired
pay due to receipt of VA disability compensation. Members with a combined VA disability
rating of 50% or greater who have at least 20 years of service will have their offset eliminated
under the Concurrent Retirement and Disability Pay (CRDP) program. The CRDP program has
a ten-year phase-in schedule that began in 2004; however, the offset is already fully eliminated
for members whose disabilities are rated total (i.e., 100%) or make the individual unemployable.
Members whose disability meets certain combat-related criteria can elect to receive payments
against the offset under the Combat Related Special Compensation (CRSC) program. Under
CRSC, members are not subject to a phase-in schedule, are not required to have at least 20 years
of service, and are not required to have at least a 50% VA disability rating. Although CRSC
amounts are calculated based on retired pay lost due to offset and are paid from the MRF, CRSC
is not technically considered retired pay. CRSC payments are tax exempt. A member may not
participate in both the CRDP and CRSC programs simultaneously, but may change from one to
the other during an annual “open season.”

VA benefits also overlap DoD survivor benefits through the DIC program. DIC is payable to
survivors of veterans who die from Service-connected causes. Although an SBP annuity must be
reduced by the amount of any DIC benefit, all SBP premiums relating to the reduction in benefits
are returned to the survivor. The FY 2008 NDAA enacted, and the Family Smoking Prevention
and Tobacco Control Act of 2009 (P.L. 111-31) revised, a temporary Special Survivor Indemnity
Allowance that pays a monthly amount ($50 in FY 2009 grading up to $310 in FY 2017) to
survivors with a DIC offset. The authority for this allowance ends in 2017.

The offset relationship between SBP and DIC has been the subject of litigation in the U.S. Court
of Appeals. As a result of the “Sharp Case” ruling, the SBP benefit of survivors with entitlement
to both DIC and SBP who remarry after age 57 is not reduced by DIC benefits received.

Other Federal Service
For military retirement purposes, no credit is given for other federal service, except for TERA
and where cross-service transferability is allowed. Military service is generally creditable
toward the federal civilian retirement systems if military retired pay is waived. However, a
deposit (equal to a percentage of post-1956 basic pay) must be made to the Civil Service
Retirement and Disability Fund in order to receive credit. Military service is not generally
creditable under both systems (but is for reservists and certain disability retirees). Military
retirees may qualify separately for Civil Service retirement and receive concurrent pay from both
systems.

Retired Pay to Military Compensation
Basic pay is the only element of military compensation upon which non-disability retired pay is
based and entitlement is determined. Basic pay is the principal element of military compensation
that all members receive, but it is not representative of salary levels in the public and private
sectors for comparative purposes. Reasonable comparisons can be made to regular military
compensation (RMC). RMC is the sum of (1) basic pay; (2) the housing allowance, which varies



                                                11
Management’s Discussion and Analysis_________________________________

by grade, location, and dependency status; (3) the subsistence allowance; and, (4) the tax
advantages accruing to allowances because they are not subject to Federal income tax. Basic pay
represents approximately 69% of RMC for all retirement eligible members. For the 20-year
retiree, basic pay is approximately 67% of RMC. Consequently, a member retired with 20-years
of service and entitled to 50% of basic pay only receives 34% of RMC. For a 30-year retiree,
basic pay is approximately 72% of RMC and such member would be entitled to 75% of basic
pay or 54% of RMC. Public Law 109-364 allows members, who retire after January 1, 2007,
with greater than 30 years of service, to retire with entitlements exceeding 75% of basic pay.
These relationships should be considered when military retired pay is compared to compensation
under other retirement systems.

Social Security Benefits
Many military members and their families receive monthly benefits indexed to the CPI from
Social Security. As full participants in the Social Security system, military personnel are in
general entitled to the same benefits and are subject to the same eligibility criteria and rules as
other employees. Details concerning these benefits are covered in other publications.

Beginning in 1946, Congress enacted a series of amendments to the Social Security Act that
extended some benefits to military personnel and their survivors. These “gratuitous” benefits
were reimbursed out of the general fund of the U.S. Treasury. The Servicemen’s and Veterans’
Survivor Benefits Act brought members of the military into the contributory Social Security
system effective January 1, 1957.

For the Old Age, Survivors, and Disability Insurance (OASDI) program, military members must
contribute the employee portion of the OASDI payroll tax, with the federal government
contributing the matching employer contribution. Only the basic pay of a military member
constitutes wages for Social Security purposes. One feature of OASDI unique to military
personnel grants a noncontributory wage credit of (i) $300 for each quarter between 1956 and
1978 in which such personnel received military wages and (ii) up to $1,200 per year after 1977
($100 of credit for each $300 of wages, up to a maximum credit of $1,200). The purpose of this
credit is to take into account elements of compensation, such as quarters and subsistence, not
included in wages for Social Security benefit calculation purposes. Under the 1983 Social
Security amendments, the cost of the additional benefits resulting from the noncontributory wage
credits for past service was met by a lump sum payment from general revenues, while the cost
for future service will be met by payment of combined employer-employee tax on such credits as
the service occurs. Payments for these wage credits ended in 2002.

Members of the military are also required to pay the Hospital Insurance payroll tax, with the
federal government contributing the matching employer contribution. Medicare eligibility
occurs at age 65, or earlier if the employee is disabled.




                                                12
Management’s Discussion and Analysis_________________________________

SIGNIFICANT CHANGES
From FY 2012 to FY 2013
Changes in the MRF valuation during FY 2013 included:

   1) New economic assumptions due to the Federal Accounting Standards Advisory Board
      (FASAB) financial reporting Statement of Federal Financial Accounting Standards 33
      (SFFAS No. 33), discussed further in Note 7, “Military Retirement Benefit Liabilities”;
   2) Refinement to reserve duty model rates;
   3) Updated disability valuation factors; and
   4) Miscellaneous minor valuation modeling updates

Items (1) – (4) are all classified as assumption changes in the actuarial valuation. Of the changes
listed above, SFFAS No. 33, which provides standards for selecting discount rate assumptions
and the valuation date for measuring pension liabilities, is the most substantial. SFFAS No. 33
requires the use of a yield curve based on marketable Treasury securities to determine the
interest rates used to calculate actuarial liabilities for federal financial statements. Historical
experience is the basis for expectations about future trends in marketable Treasury securities.
The DoD Board of Actuaries approved items (2) – (4) at their July 2013 meeting. Item (1) is
prescribed and therefore the resulting economic assumptions will be different than those assumed
by the DoD Board of Actuaries for funding calculations.

There were no legislative benefit changes during FY 2013 which impacted the valuation. (The
overturn of DOMA was estimated to have an immaterial impact on results.)

For FY 2014
In the current fiscal climate it is difficult to predict changes for any particular year. Over the
next upcoming fiscal year the potential benefit changes with respect to the MRF include:

   1)   Reform of the MRS;
   2)   Budget Constraints (i.e., ‘Sequestration’);
   3)   Expansion of the SSIA;
   4)   Concurrent Receipt/DIC enhancements; and
   5)   Refinements to the active and reserve duty systems

OACT will propose updates to the actuarial assumptions underlying the valuation of the MRS to
more accurately reflect emerging plan experience as changes are implemented.

PERFORMANCE MEASURES
During FY 2013 and 2012, MRF made monthly disbursements to approximately 2.2 million
retirees and annuitants.

There are many ways to measure the performance of a pension plan. Table 3 depicts a few
common measures, specifically 1) Percent Funded, 2) Asset-to-Annuitant Liability Ratio, and 3)
Effective Fund Yield. The last ten years are shown.



                                                13
Management’s Discussion and Analysis_________________________________

                                           TABLE 3
                                 MILITARY RETIREMENT SYSTEM
                                   PERFORMANCE MEASURES


                                                           Asset-to-
                    As of             Percent             Annuitant               Effective
                   Sept. 30,          Funded            Liability Ratio          Fund Yield
                    2013               31.8%                 53.5%                   3.1%
                    2012               29.0                  49.2                    2.9
                    2011               27.3                  46.2                    4.9
                    2010               25.6                  43.2                    3.2
                    2009               23.7                  38.6                    1.0
                    2008               22.0                  35.4                    6.2
                    2007               21.3                  34.2                    4.7
                    2006               21.6                  34.5                    5.9
                    2005               22.2                  35.3                    5.5
                    2004               22.5                  36.9                    5.4

NOTES:
- Percent Funded computed as total assets (from Balance Sheet) to actuarial accrued liability.
- Asset-to-Annuitant Liability Ratio computed as total assets (from Balance Sheet) to present value of
  future benefits for the annuitant population.
- Effective Fund Yield is the approximate fund yield over the course of the associated fiscal year.
- The MRF is invested solely in intragovernmental U.S. Treasury securities. Therefore, the above measures
  should be used with caution when compared with other retirement funds and cited in the appropriate context.


PROJECTED LONG-TERM HEALTH OF THE FUND
The projected long-term health of the MRF is adequate due to the fact that it has three different
sources of funding. The first two sources are appropriated funds:

    1) Annual payments from Treasury to amortize the unfunded liability and pay the normal
       cost of the concurrent receipt benefits; and
    2) Monthly normal cost payments from the Services to pay for the current year’s service
       cost.

The third source of funding, earnings on investments, is projected to be an increasing
contribution to the MRF due to an increasing fund balance. All three of these sources can be
considered secure sources of funding, backed by the full faith and credit of the U.S. Government.

MRF investment policy mandates that securities will be held to maturity. Occasionally,
however, securities in the portfolio are liquidated prior to their stated maturity date. MRF has
the authority to sell all or part of a security early to meet cash flow/benefit payment
requirements. During FY 2013, two securities were sold prior to their stated maturity.
Inflationary interest realized on Treasury Inflation-Protected Securities was approximately $500
million less than projected and required the early sale of approximately $459 million of the
portfolio to meet potential cash flow requirements and provide for adjustments and contingencies



                                                        14
Management’s Discussion and Analysis_________________________________

under the worst-case contingency scenario. Historically, MRF holds cash in overnight securities
in an amount equal to 110% of the following month’s benefit. The inflationary interest shortfall
caused the MRF cash balance to fall below 110% of the next required benefit payment. Without
the early sale, there would have only been 101% of the next payment available in overnight
securities, imposing too great a risk of the fund balance being exceeded.

Unified Budget of the Federal Government
The MRF was created inside the Unified Budget of the federal government for the monies of the
MRS. All three sources of fund income are intragovernmental transactions consisting of
transfers from one government account to another. The only transactions in a particular year that
directly affect the deficit of the Unified Budget are those that pass in or out of the government,
such as tax collections (“in”) and beneficiary payments (“out”). These intragovernmental
transfers are debits and credits within the federal budget, with no direct effect on the deficit. Just
as in the pay-as-you-go method, the only transactions that directly affect the deficit in the
retirement system accounting process are payments to retirees and survivors (i.e.
outlays/payments). The purchase of securities by the Fund does increase the national debt,
specifically the portion of the debt held by the government – the portion held by the public does
not change. See Figure 1.

                                       FIGURE 1
                                    UNIFIED BUDGET
           TAXES (“IN”)



        DOD NORMAL COST           INTRAGOVERNMENTAL TRANSFER
           PAYMENTS




       TREASURY PAYMENTS          INTRAGOVERNMENTAL TRANSFER



                                                                           MILITARY
       TREASURY PAYMENTS                                                  RETIREMENT
         OF INTEREST PLUS                                                    FUND
          PAR VALUE AT            INTRAGOVERNMENTAL TRANSFER
             MATURITY




           TREASURY               INTRAGOVERNMENTAL TRANSFER
           SECURITIES



                                                                      OUTLAYS (“OUT”)


However, funding does have an effect on the DoD budget. With the normal cost payments
(except for Concurrent Receipt) included in the DoD budget, policymakers now consider the
impact on future retirement costs when they make manpower decisions, which could have a


                                                 15
Management’s Discussion and Analysis_________________________________

significant impact on future federal budgets. For example, if a decision were made today to
double the size of the active duty and reserve forces, the DoD budget would automatically have
an immediate increase in retirement obligations. Under the pay-as-you-go system, the retirement
expenses would not necessarily be considered in the initial decision since they would not show
up for 20 years.

The fact that MRF costs are fully recognized in advance provides greater benefit security over
the long term. Also, when there is a retirement fund, the MRS is not as dependent on obtaining
the necessary appropriation from Congress each year in order to pay benefits for that year. This
can provide additional benefit security. As such, the existence of the Fund promotes a measure
of “psychological security” for military members.

20-Year Projection
Table 4 presents a projection of contributions to and disbursements from the MRF. It includes
the dollar amounts as a percent of payroll. The Fund is projected to remain solvent over the 20-
year projection period. Further, as long as the funding sources continue making the required
payments to the MRF in a timely fashion, the Fund is projected to remain solvent well beyond
the 20-year projection horizon.

The following projections were made for FY 2013:

       •   Basic pay for FY 2013 was projected to be $63.7 billion.
       •   Normal cost payments were projected to be $26.6 billion.
       •   The unfunded liability amortization payment was projected to be $67.7 billion.
       •   Investment income was projected to be $28.5 billion.
       •   Fund disbursements for FY 2013 were projected to be $54.5 billion.




                                              16
       Management’s Discussion and Analysis_________________________________

                                                              TABLE 4
                                              MILITARY RETIREMENT SYSTEM
                                            PROJECTED FLOW OF PLAN ASSETS
                                        (In Billions of Dollars and as a Proportion of Payroll)


Fiscal       Basic        Normal Cost         Amortization of          Investment             Fund               Fund Balance
                                                Unfunded
Year        Payroll        Payments             Liability               Income            Disbursements          End of Year

2014         $65.0      $27.4   (0.421)       $72.9    (1.121)      $30.7    (0.472)     $55.3    (0.851)   $570.8       (8.778)
2015         $65.0      $27.3   (0.421)       $75.4    (1.161)      $34.9    (0.538)     $56.7    (0.873)   $651.7      (10.034)
2016         $65.2      $27.4   (0.421)       $78.1    (1.198)      $39.5    (0.606)     $58.3    (0.895)   $738.4      (11.328)
2017         $65.7      $27.6   (0.420)       $80.8    (1.229)      $44.4    (0.675)     $60.0    (0.912)   $831.2      (12.645)
2018         $67.3      $28.3   (0.420)       $83.6    (1.243)      $49.6    (0.737)     $61.4    (0.912)   $931.3      (13.841)

2019         $69.1      $29.0   (0.420)       $86.6    (1.254)      $55.2    (0.800)     $63.0    (0.913)   $1,039.1    (15.047)
2020         $70.9      $29.7   (0.420)       $89.6    (1.265)      $61.3    (0.865)     $64.7    (0.914)   $1,155.0    (16.301)
2021         $72.7      $30.5   (0.419)       $92.7    (1.275)      $67.8    (0.933)     $66.5    (0.915)   $1,279.6    (17.596)
2022         $74.6      $31.3   (0.419)       $96.0    (1.286)      $74.8    (1.003)     $68.8    (0.922)   $1,412.9    (18.932)
2023         $77.1      $32.3   (0.419)       $99.3    (1.289)      $82.3    (1.068)     $71.3    (0.924)   $1,555.6    (20.178)

2024         $79.6      $33.4   (0.419)       $102.8   (1.291)      $90.3    (1.134)     $74.1    (0.930)   $1,708.0    (21.452)
2025         $82.2      $34.4   (0.419)       $106.4   (1.294)      $98.9    (1.202)     $76.9    (0.935)   $1,870.9    (22.747)
2026         $85.0      $35.6   (0.419)       $110.1   (1.296)      $108.0   (1.271)     $79.5    (0.936)   $2,045.1    (24.060)
2027         $87.8      $36.8   (0.419)       -$13.3   (0.151)      $110.8   (1.261)     $82.2    (0.936)   $2,097.1    (23.875)
2028         $90.8      $38.0   (0.418)        $14.9   (0.164)      $115.1   (1.268)     $85.0    (0.937)   $2,180.0    (24.013)

2029         $93.8      $39.3   (0.418)       $19.0    (0.203)      $119.9   (1.277)     $87.9    (0.936)   $2,270.3    (24.191)
2030         $97.1      $40.6   (0.418)       $19.7    (0.203)      $124.9   (1.286)     $90.7    (0.935)   $2,364.7    (24.362)
2031         $100.5     $42.0   (0.418)       $20.4    (0.203)      $130.1   (1.295)     $93.6    (0.932)   $2,463.6    (24.525)
2032         $104.0     $43.5   (0.418)       $21.1    (0.203)      $135.5   (1.303)     $96.5    (0.928)   $2,567.1    (24.683)
2033         $107.6     $45.0   (0.418)       $21.8    (0.203)      $141.2   (1.312)     $99.7    (0.926)   $2,675.5    (24.856)


       Notes
       - The preceding projections assume a long-term 5.5% interest rate each year.
       - The projections will vary in the short-term depending on the actual economic experience.
       - The table is also presented in the September 30, 2013, ‘Valuation of the Military Retirement System.’
           Note that the projection is based on FY 2012 MRF methods and assumptions.
       - The above Fund Disbursements do not include the effect of NDAA 2011 (retired pay date change).


       Expected Problems
       There are no foreseen major problems with respect to MRF that would require disclosure in the
       Management’s Discussion and Analysis.




                                                                 17
Management’s Discussion and Analysis_________________________________

Investments
                                          FIGURE 2
                                        INVESTMENTS


                                   Investments as of 9/30/13
                                        ($483.4 billion)
                                                                   Notes, $8.5, 1.7%


                                Inflation, $72.4,
                                       15%                        Overnights, $15.4, 3.2%


                                  Interest Receivable,
                                       $3.8, 0.8%
                                                  Bonds,
                                                $17.2, 3.6%




                                            TIPS, $366.1, 75.7%




              Figure 2 depicts the value (par, net of unamortized discount/premium)
                        of investment holdings as of September 30, 2013.

Management Oversight
The Fund receives management oversight from the DoD Investment Board established in
September 2003. The members of the Investment Board are the Director, DFAS; the Deputy
CFO, OUSD(C); and a senior military member, currently the Director, Army Budget. The
Investment Board meets twice each fiscal year to consider investment objectives, policies,
performance, and strategies with the goal of maximizing MRF's investment income. The
Investment Board reviews MRF's law and Department of Treasury guidelines to ensure that
MRF complies with broad policy guidance and public law. At the September 24, 2013 meeting,
the Investment Board approved the FY 2014 investments recommended by the Investment
Advisory Committee (a group of military reservists whose civilian expertise is investing). No
changes were made to the Investment Policy Statement that incorporated all previously approved
strategies into one document. This includes a ladder approach for investments and the “hold to
maturity” policy.




                                                    18
Management’s Discussion and Analysis_________________________________

Anticipated Changes between the Expected and Actual Investment Rate of Return
The past decade has seen increased volatility in interest rates and equity markets, increasing
deficits, volatility in the markets with regard to energy prices, elevated states of international
conflict, increasing sovereign debt levels, unusual central banking monetary policy, and slow
economic growth. These items have been a catalyst in the on-going discussion of implementing
strong U.S. fiscal control and monetary policy among politicians. Active political management
of the U.S. debt and annual deficit may create an opportunity to purchase Treasury market
securities at higher rates of interest in the future. Conversely, uneasy equity markets tend to push
participants toward government securities causing downward pressure on interest rates. There
has also been a movement among private sector firms to increase pension plan investments in
lower risk securities, which has been driven in part by an area of modern corporate financial
theory known as financial economics. An investment strategy has been developed to shift
toward U.S. Treasury Inflation-Protected Securities (TIPS) to hedge against any future inflation.

The Fund receives investment income from a variety of U.S. Treasury-based instruments such as
bills, notes, bonds and overnight investment certificates. U.S. Treasury bills are short-term
securities with maturities of less than one year issued at a discount. U.S. Treasury notes are
intermediate securities with maturities of one to ten years. U.S. Treasury bonds are long-term
debt instruments with maturities of greater than ten years. Overnight certificates are interest-
based market securities purchased from the U.S. Treasury that mature the next business day and
accrue interest based on the Federal Reserve Bank of New York survey of Reserve repurchase
agreement rates.

The Fund also invests in TIPS, which are indexed for inflation. TIPS are fixed-rate instruments
designed to protect against inflation and the principal amount is indexed to the CPI by adjusting
the CPI at issuance to the current CPI; as inflation increases, so does the principal amount.




                                                19
Management’s Discussion and Analysis_________________________________

FINANCIAL PERFORMANCE OVERVIEW
Financial Data
Table 5 presents significant changes in the comparative financial statement information for the
MRF.

                                                       TABLE 5
                                              MILITARY RETIREMENT FUND
                                    ANALYSIS OF FINANCIAL STATEMENTS
                                        For the Years Ended September 30, 2013 and 2012
                                                        ($ in Thousands)

                                                                                               Difference       %
                                                                  2013            2012          Increase /    Change
                                                                                               (Decrease)
                    BALANCE SHEETS
Investments
                  Intragovernmental Investments              $483,404,715     $427,867,449     $55,537,266     13%
Liabilities
              Military Retirement and Other Federal
                                                            $1,524,223,046   $1,481,970,006   $42,253,040      3%
                      Employment Benefits
               STATEMENTS OF NET COST
                     Net Cost of Operations                 ($13,282,181)     $64,964,891     ($78,247,072)   (120%)
STATEMENTS OF BUDGETARY RESOURCES
                          Net Outlays                        ($13,456,113)    ($15,962,551)    $2,506,438      (16%)

BALANCE SHEETS
- Intragovernmental Investments: Total Intragovernmental Securities, Net Investments increased $55.5 billion
(13%) primarily due to the MRF purchase of $65.2 billion in additional securities. The increase is due to normal
growth in the MRF from contributions from the U.S. Treasury and the Military Services, net of benefits paid. The
annual investment of these funds has a cumulative effect with an expectation that invested balances will continue
growing to cover future benefits.
- Military Retirement and Other Federal Employment Benefits: The present value of the Military Retirement and
Other Federal Employment Benefits liability increased $42.3 billion (3%). There was the expected actuarial liability
increase of $44.7 billion from normal cost and interest costs, offset by benefit payments. Regarding actuarial
assumption changes, there was an increase of $27.2 billion primarily due to a lower interest rate and associated
changes in long-term salary increase and inflation assumptions related to requirements prescribed by Statement of
Federal Financial Accounting Standards (SFFAS) 33. Additionally, this increase was offset by a decrease of $15.3
billion due to reserve valuation model refinements, updated disability valuation factors, and other miscellaneous
modeling updates. Further, there was an experience gain (i.e., decrease) of $14.7 billion which reflects other
economic and demographic experience being different than assumed.
STATEMENTS OF NET COST
- Net Cost of Operations: The Net Cost of Operations decrease of $78.2 billion (-120%) is primarily due to a
decrease of $65.3 billion from changes in assumptions used by the DoD Office of the Actuary to compute the
actuarial liability.
STATEMENTS OF BUDGETARY RESOURCES
- Net Outlays: Net Outlays increased by $2.5 billion (-16%). The October FY12 Retired Pay Benefit payment was
disbursed in FY11 due to the normal payment period falling on a weekend. FY12 disbursements of $48.8 billion
only include 11 Retired Pay Benefit payment periods, rather than 12. FY13 outlays include 12 payment periods
totaling $54.3 billion, accounting for a $5.5 billion dollar increase. This was offset by an increase in U.S. Treasury
contributions of $3.0 billion.




                                                             20
Management’s Discussion and Analysis_________________________________


                                       Assets as of 9/30/13
                                         ($483.5 billion)




                                    Investments, $483.4, 100%        Fund Balance
             Accounts Receivable,                                    With Treasury,
                $0.06, < 0.1%                                        $0.03, < 0.1%



                                     Figure 3. Total Assets


Assets
Assets of $483.5 billion shown in Figure 3 represent amounts that the MRF owns and manages.
Assets increased $55.5 billion, or 13%, from the end of FY 2012 to the end of FY 2013. This
increase is largely attributable to purchasing new investments of $65.2 billion with funds
received from the U.S. Treasury payments, Service contributions, and interest received. The net
increase in investments is related to expected normal growth to cover unfunded portions of future
military retirement benefits. Funds not needed to pay current benefits are invested in U.S.
Treasury securities or invested in overnight securities, as necessary, to make future benefit
payments.




                                               21
Management’s Discussion and Analysis_________________________________


                                          Liabilities as of 9/30/13
                                             ($1,524.2 billion)




                                            Military Retirement and
              Other intragovernmental       Other Federal liabilities,      Other Nonfederal
               Liabilities, $0.002, 0%           $1,524.2, 100%          Liabilities, $0.0002, 0%




                                         Figure 4. Total Liabilities

Liabilities
Liabilities of $1.5 trillion shown in Figure 4 represent liabilities related to military retirement
pension benefits. The liabilities of the MRF primarily consist of actuarial liability for future
benefit payments. Liabilities increased $42.3 billion, 3%, from the end of FY 2012 to the end of
FY 2013. This increase is largely attributable to the increase in the actuarial liability.

The MRF management is confident in the Fund’s ability to meet its financial obligations. Of the
$1.5 trillion in liabilities, approximately $420.6 billion (28%) is covered primarily by
investments in U.S. Treasury securities (Figure 5). While the liability presents a negative
financial position, the majority of the unfunded portion will come from annual appropriations
external to DoD ensuring benefits are paid regardless of available assets. The initial unfunded
actuarial liability, $529 billion in 1984, is being amortized over 42 years and is expected to be
fully funded through U.S. Treasury contributions by FY 2026. The current investments, the
interest received on the investments, and the amortization of the initial liability will provide
sufficient funds to cover the financial obligations of the MRF.




                                                     22
Management’s Discussion and Analysis_________________________________



                               Funded and Unfunded Liabilities
                                       as of 9/30/13
                                     ($1,524.2 billion)




                                                         Liabilities Covered by
                                                            Budgetary Resources,
                                                                   $ 420.6, 28%




                     Liabilities Not Covered by Budgetary Resources,
                                       $1,103.6, 72%




                           Figure 5. Funded and Unfunded Liabilities


MANAGEMENT ASSURANCES
Agencies are required to provide certain assurances as to the status and effectiveness of the
internal controls and financial management systems that support the preparation of the financial
statements. In the context of the MRF Management’s Discussion and Analysis, DoD, and not
MRF, represents the legislative definition of an Agency. Beginning with FY 2006, as directed in
Office of Management and Budget (OMB) Circular A-123, Management’s Responsibility for
Internal Control, Appendix A, Internal Control over Financial Reporting, the 24 CFO Act
agencies (including DoD), are required to provide a separate assessment of the effectiveness of
the internal controls over financial reporting as a subset of the overall Federal Managers
Financial Integrity Act (FMFIA) assurance statement. Currently, the Defense Finance and



                                               23
Management’s Discussion and Analysis_________________________________

Accounting Service (DFAS) and the DoD Office of the Actuary (OACT) provide Statements of
Assurance for systems and controls relied upon in the day to day operation of MRF. During FY
2014, a MRF Board of Trustees will be implemented, chartered with a focus on providing direct
oversight of the MRF. Procedures will be formed to ensure adherence to the overarching
statutory requirements of OMB 14-02, "Audit Requirements and Federal Financial Statements,"
which defines requirements for conducting and submitting FMFIA assessments and reports.

In FY 2013, under the current management structure, DFAS and OACT determined that the
responsible MRF functions have effective internal controls to support effective and efficient
programmatic operations and reliable financial reporting. In FY 2009, the service providers
implemented corrective actions to become substantially compliant with applicable laws and
regulations (FMFIA § 2). The current financial management system conforms to financial
systems requirements and is substantially FMFIA compliant.

Under the current management arrangement, DFAS and OACT are responsible for appropriately
establishing and maintaining effective internal control and financial management systems that
meet the objectives of the FMFIA, subject to MRF operation. They conducted a functional
assessment of the effectiveness of internal control over the effectiveness and efficiency of
operations and compliance with applicable laws and regulations in accordance with OMB
Circular A-123, Management's Responsibility for Internal Control. Based on the results of this
evaluation, the service providers can assure that MRF can provide reasonable assurance that
internal controls over the effectiveness and efficiency of operations and compliance with
applicable laws and regulations for FY 2013 were operating effectively and no material
weaknesses were found in the design or operation of the internal controls.

Additionally under the current management process, DFAS and OACT conducted assessments of
the effectiveness of internal control over financial reporting, which includes safeguarding of
assets and compliance with applicable laws and regulations, in accordance with the requirements
of Appendix A of OMB Circular A-123. Based on the results of these evaluations, DFAS and
OACT can assure that MRF can provide reasonable assurance that its internal control over
financial reporting as of May and July, 2013 (respectively) were operating effectively and no
material weaknesses were found in the design or operation of the internal control over financial
reporting.

IMPROPER PAYMENTS INFORMATION ACT OF 2002 (PUBLIC LAW NO. 107-300)
The MRF public accounts receivable, $62.9 million, consists mostly of improper payments to
deceased retirees and survivors. This is less than 0.02% of the total assets and approximately
0.1% of the annual incurred benefit outlays. In comparison, on the FY 2012 Government-Wide
Financial statements, improper payments accounted for about 4% of total assets.

The Improper Payments Information Act of 2002, as implemented by OMB Circular A-123,
Appendix C, Requirements for Effective Measurement and Remediation of Improper Payments,
requires Federal agencies to review all programs and activities annually and identify those that
may be susceptible to significant erroneous payments (i.e., programs with erroneous payments
exceeding both $10 million and 2.5% of program payments). The terms improper and erroneous
are used interchangeably. An improper payment occurs when the funds go to the wrong


                                              24
Management’s Discussion and Analysis_________________________________

recipient, the recipient receives the incorrect amount of funds, or the recipient receives payment
for an ineligible service. Improper payments also include duplicate payments and payments for
services not received.

Based on the individual assurances from DFAS and OACT, the MRF’s risk assessment addresses
the effectiveness of internal controls in place to prevent improper payments (such as prepayment
reviews) as well as system weaknesses identified internally or by outside audit activities. While
MRF’s improper payment percentages are extremely low, numerous pre- and post-payment
controls further minimize and eliminate improper payments.

Payments to deceased retirees continue to be the highest risk for improper payments in military
retired pay. In certain situations, payment to deceased retirees is unavoidable due to payment
cycle dates and the fact that notifying a payroll activity is not likely to be the first action for next-
of-kin at the time of a retiree’s passing. A review of confirmed payments to deceased retirees in
FY 2008 indicated that the Department recovered 96% of the overpayment amounts within 60
days, demonstrating the effectiveness of controls within the retired pay system once a retiree’s
death confirmation is received and processed for final disposition.

The MRF’s control processes to prevent, identify, and reduce overpayments to deceased retirees
include a series of periodic eligibility notifications, early detection data mining efforts, and
partnerships with other Federal and state entities. The MRF takes a proactive approach,
routinely comparing retired and annuity payroll master file databases to Social Security
Administration “deceased” records and periodically comparing records with the Office of
Personnel Management deceased files. “Ad hoc” death match file comparisons are also
conducted with the VA’s cemetery database files and with individual states (e.g., Texas,
California, Florida) with sizable retiree and annuitant populations. Retirees identified as
deceased in these comparisons must validate their continued eligibility, or the accounts are
suspended.

Certifying officer legislation holds certifying and disbursing officers accountable for government
funds. In accordance with section 2773a of title 10, U.S.C., pecuniary liability attaches
automatically when there is a fiscal irregularity, i.e., (1) a physical loss of cash, vouchers,
negotiable instruments, or supporting documents, or (2) an improper payment. Efforts to recover
from a recipient must be undertaken in accordance with the debt collection procedures in
Volume V, Chapters 29 and 30, of the DoD Financial Management Regulation.

LIMITATIONS OF THE FINANCIAL STATEMENTS
These financial statements have been prepared to report the financial position and results of
operations for the MRF pursuant to the requirements of the Chief Financial Officers Act (CFO)
of 1990. While the statements have been prepared from the books and records of MRF in
accordance with the generally accepted accounting principles for federal entities and formats
prescribed by OMB, the statements are in addition to the financial statements used to monitor
and control budgetary resources that are prepared from the same books and records. These
statements should be read with the realization that they are for a component of the U.S.
Government, a sovereign entity. Unfunded liabilities reported in the financial statements cannot
be liquidated without the enactment of an appropriation.


                                                   25
DoD Endorsement of Auditor’s Opinion________________________________




                                 26
DoD Endorsement of Auditor’s Opinion________________________________




                                 27
DoD Independent Auditor’s Report____________________________________




                                 28
DoD Independent Auditor’s Report____________________________________




                                 29
DoD Independent Auditor’s Report____________________________________




                                 30
DoD Independent Auditor’s Report____________________________________




                                 31
DoD Independent Auditor’s Report____________________________________




                                 32
DoD Independent Auditor’s Report____________________________________




                                 33
DoD Independent Auditor’s Report____________________________________




                                 34
DoD Independent Auditor’s Report____________________________________




                                 35
DoD MRF Principal Financial Statements_______________________________




                   FY 2013 Military Retirement Fund
                    Principal Financial Statements




                                  36
DoD MRF Principal Financial Statements_______________________________

Military Retirement Fund
BALANCE SHEETS
As of September 30, 2013 and 2012
($ in Thousands)
                                                                                  Restated
                                                               2013                 2012
  ASSETS (Note 2)
      Intragovernmental:
        Fund Balance with Treasury (Note 3)           $            25,151 $             23,014
        Investments (Note 4)                                  483,404,715          427,867,449
        Total Intragovernmental Assets                $       483,429,866 $        427,890,463

      Accounts Receivable,Net (Note 5)                             62,868               67,005
  TOTAL ASSETS                                        $       483,492,734 $        427,957,468

  LIABILITIES (Note 6)
       Intragovernmental:
         Other Liabilities (Note 8)                   $               1,801 $            1,770
         Total Intragovernmental Liabilities                          1,801              1,770

      Military Retirement and Other Federal                 1,524,223,046        1,481,970,006
      Employment Benefits (Note 7)
      Other Liabilities (Note 8)                                      206                  192
  TOTAL LIABILITIES                                         1,524,225,053        1,481,971,968

  NET POSITION
     Cumulative Results of Operations - Other Funds        (1,040,732,319)      (1,054,014,500)
  TOTAL NET POSITION                                  $    (1,040,732,319) $    (1,054,014,500)

  TOTAL LIABILITIES AND NET POSITION                  $       483,492,734 $        427,957,468




The accompanying notes are an integral part of these statements.
Please see Independent Auditors’ Report on page 28.



                                               37
DoD MRF Principal Financial Statements_______________________________

Military Retirement Fund
STATEMENTS OF NET COST
For the years ended September 30, 2013 and 2012
($ in Thousands)
                                                                     2013              2012
  Program Costs (Note 10)

        Military Retirement Benefits
          Actuarial Non Assumption Costs                     $      29,955,338 $      39,805,163
          Other Program Costs                                       54,872,611        52,475,723
       Total Gross Costs                                     $      84,827,949 $      92,280,886

        (Less: Earned Revenue)                                   (110,016,380)      (104,506,237)
       Net Cost before Losses/(Gains) from Actuarial
       Assumption Changes for Military Retirement Benefits         (25,188,431)      (12,225,351)
        Losses/(Gains) from Actuarial Assumption Changes
        for Military Retirement Benefits (Note 7)                    11,906,250       77,190,242
       Net Program Costs Including Assumption Changes              (13,282,181)       64,964,891
  Net Cost of Operations                                     $     (13,282,181) $     64,964,891




The accompanying notes are an integral part of these statements.
Please see Independent Auditors’ Report on page 28.


                                                38
DoD MRF Principal Financial Statements_______________________________

Military Retirement Fund
STATEMENTS OF CHANGES IN NET POSITION
For the years ended September 30, 2013 and 2012
($ in Thousands)
                                                                             Restated
                                                             2013              2012
CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                  $   (1,054,014,500) $     (989,049,609)
Beginning balances, as adjusted                         (1,054,014,500)       (989,049,609)
Net Cost of Operations (+/-)                               (13,282,181)          64,964,891
Net Change                                                   13,282,181        (64,964,891)
Cumulative Results of Operations                        (1,040,732,319)     (1,054,014,500)
Net Position                                        $   (1,040,732,319) $   (1,054,014,500)




The accompanying notes are an integral part of these statements.
Please see Independent Auditors’ Report on page 28.



                                              39
DoD MRF Principal Financial Statements_______________________________

Military Retirement Fund
STATEMENTS OF BUDGETARY RESOURCES
For the years ended September 30, 2013 and 2012
($ in Thousands)
                                                                   2013           2012
Budgetary Resources:
Appropriations (discretionary and mandatory)              $    54,668,338 $       52,495,209
Total Budgetary Resources                                 $    54,668,338 $       52,495,209

Status of Budgetary Resources:
Obligations Incurred                                      $    54,668,338 $       52,495,209
Unobligated balance, end of year                                        0                  0
Total Budgetary Resources                                 $    54,668,338 $       52,495,209

Change in Obligated Balance:
        Unpaid obligations:
Unpaid obligations, brought forward, Oct 1                $      4,052,097 $          345,337
Obligations incurred                                            54,668,338         52,495,209
Outlays (gross) (-)                                           (54,276,887)       (48,788,449)
Unpaid obligations, end of year                                  4,443,548          4,052,097
Memorandum (non-add) entries:
Obligated balance, start of year (+ or -)                 $        4,052,097 $       345,337
Obligated balance, end of year (+ or -)                   $        4,443,548 $     4,052,097

Budget Authority and Outlays, Net:
Budget authority, gross (discretionary and mandatory)     $   54,668,338    $      52,495,209
Budget Authority, net (discretionary and mandatory)       $   54,668,338    $      52,495,209
Outlays, gross (discretionary and mandatory)              $   54,276,887    $      48,788,449
Outlays, net (discretionary and mandatory)                    54,276,887           48,788,449
Distributed offsetting receipts (-)                         (67,733,000)         (64,751,000)
Agency Outlays, net (discretionary and mandatory)         $ (13,456,113)    $    (15,962,551)




The accompanying notes are an integral part of these statements.
Please see Independent Auditors’ Report on page 28.



                                                40
DoD MRF Footnotes to the Principal Financial Statements________________




                         FY 2013 Military Retirement Fund
                         Footnotes to the Principal Financial
                                     Statements




The accompanying notes are an integral part of these statements.
Please see Independent Auditors’ Report on page 28.



                                              41
DoD MRF Notes to the Principal Financial Statements____________________


Note 1. Significant Accounting Policies

1.A. Basis of Presentation
These financial statements have been prepared to report the financial position and results of
operations for the Military Retirement Fund (MRF), as required by the Chief Financial Officers
Act of 1990, expanded by the Government Management Reform Act of 1994, and other
appropriate legislation. The financial statements have been prepared from the books and records
of the MRF in accordance with U.S. generally accepted accounting principles (USGAAP)
promulgated by the Federal Accounting Standards Advisory Board; the Office of Management
and Budget (OMB) Circular No. A-136, Financial Reporting Requirements; and the Department
of Defense (DoD) Financial Management Regulation. The accompanying financial statements
account for all resources for which the MRF is responsible unless otherwise noted.

1.B. Mission of the Reporting Entity
The mission of MRF is to accumulate funds to finance, on an actuarially sound basis, the
liabilities of DoD military retirement and survivor benefit programs. The MRF is a program for
the payment of pensions to retired military personnel, annuities to eligible survivors, and special
compensation for certain disabled retirees.

1.C. Appropriations and Funds
Public Law 98-94, The Defense Authorization Act of 1984, authorized MRF and provided a
permanent, indefinite appropriation. Permanent authority becomes available based upon
standing provisions of law without any further legislative action by the Congress after transmittal
of the budget for each year.

The MRF is a nonrevolving trust fund. Trust funds contain receipts and expenditures of funds
held in trust by the government for use in carrying out specific purposes or programs in
accordance with the terms of the donor, trust agreement, or statute.

1.D. Basis of Accounting
The MRF’s financial management systems meet all full accrual accounting requirements. The
MRF’s accounting systems record transactions based on the U.S. Standard General Ledger
(USSGL). Financial and nonfinancial feeder systems and processes are updated from legacy
systems to collect and report financial information as required by USGAAP.

The financial statements and supporting trial balances are compiled from the underlying financial
data and trial balances. The underlying data for the MRF is largely derived from budgetary
transactions (obligations, disbursements, and collections) and proprietary transactions (assets and
liabilities) and accruals made for pension liabilities.

1.E. Revenues and Other Financing Sources
Using methods and assumptions approved by the DoD Board of Actuaries, the DoD Office of the
Actuary determines the amount of the contributions made to MRF. The Military Services make
a monthly contribution, which is a percentage of basic pay, to cover accruing costs for currently
active military members. The MRF also receives a U. S. Treasury warrant at the beginning of

                                                42
DoD MRF Notes to the Principal Financial Statements____________________

each fiscal year (1) to amortize unfunded liability and (2) to cover accruing costs for concurrent
receipts (certain beneficiaries with combat-related injuries who are receiving payments from the
Department of Veterans Affairs (VA)). In addition, interest is earned on investments. Funds
from the contributions that exceed the amounts required to pay current year expenses are
invested in long-term securities. These investments and their associated interest revenues will be
used to cover future liabilities of MRF.

1.F. Recognition of Expenses
For financial reporting purposes, DoD policy requires the recognition of benefit expenses in the
period incurred. The current financial management systems for MRF collect and record on full
accrual accounting basis for liabilities and expenses of the fund.

1.G. Accounting for Intragovernmental Activities
The Treasury Financial Manual Part 2-Chapter 4700, Agency Reporting Requirements for the
Financial Report of the United States Government, provides guidance for reporting and
reconciling intragovernmental balances. The MRF is able to reconcile balances pertaining to
investments in federal securities.

The DoD’s proportionate share of public debt and related expenses of the Federal Government is
not included. The Federal Government does not apportion debt and its related costs to federal
agencies. The DoD’s financial statements do not report any public debt, interest, or source of
public financing, whether from issuance of debt or tax revenues.

1.H. Funds with the U.S. Treasury
The MRF’s monetary resources are maintained in U.S. Treasury accounts. The disbursing
offices of the Defense Finance and Accounting Service (DFAS) process MRF’s cash collections,
disbursements, and adjustments worldwide. Each disbursing station prepares monthly reports
that provide information to the U.S. Treasury on checks issued, electronic fund transfers,
interagency transfers, and deposits.

In addition, DFAS sites submit reports to the U.S. Treasury, by appropriation, on interagency
transfers, collections received, and disbursements issued. The U.S. Treasury records these
transactions to the applicable Fund Balance with Treasury (FBWT) account. The MRF
reconciles to the U.S. Treasury account monthly, with no outstanding discrepancies.

The U.S. Treasury allows MRF to be fully invested; therefore FBWT may be zero at various
times during the fiscal year. Controls are in place to prevent abnormal balances at the U.S.
Treasury.

1.I. Accounts Receivable
Accounts receivable from other federal entities or from the public include: accounts receivable,
claims receivable, and refunds receivable. Allowances for uncollectible accounts due from the
public are based upon an analysis of actual collection experience by MRF during the previous
three years. The DoD does not recognize an allowance for estimated uncollectible amounts from
other federal agencies. Claims against other federal agencies are to be resolved between the



                                               43
DoD MRF Notes to the Principal Financial Statements____________________

agencies in accordance with dispute resolution procedures defined in the Intragovernmental
Business Rules published in the Treasury Financial Manual.

1.J. Investments in U.S. Treasury Securities
The MRF reports investments in U.S. Treasury securities at cost, net of amortized premiums or
discounts (book value). Premiums or discounts are amortized over the term of the investment
using the effective interest rate method. The MRF’s intent is to hold investments to maturity
unless they are needed to finance claims or otherwise sustain operations. Consequently, there is
no provision for unrealized gains or losses on these securities.

The MRF invests in nonmarketable, market-based U.S. Treasury securities which are issued to
federal agencies by the U. S. Treasury, Bureau of Fiscal Service. These securities are not traded
on any financial exchange but are priced consistently with publicly traded U.S. Treasury
securities. The MRF receives interest semiannually from the U.S. Treasury on the value of these
securities.

1.K. Contingencies and Other Liabilities
The SFFAS No. 5, Accounting for Liabilities of the Federal Government, as amended by
SFFAS No. 12, Recognition of Contingent Liabilities Arising from Litigation, defines a
contingency as an existing condition, situation, or set of circumstances that involves an
uncertainty as to possible gain or loss. The uncertainty will be resolved when one or more future
events occur or fail to occur. The MRF recognizes contingent liabilities when past events or
exchange transactions occur, a future loss is probable, and the loss amount can be reasonably
estimated.

Financial statement reporting is limited to disclosure when conditions for liability recognition do
not exist but there is at least a reasonable possibility of incurring a loss or additional losses. The
MRF reports death payment contingencies that result from DoD’s responsibility to cover retiree
benefits not paid by the VA during the month of death.

1.L. Net Position
Net position consists of cumulative results of operations. Cumulative results of operations
represent the net of expenses, losses, and financing sources (including appropriations, revenue,
and gains) since inception.

1.M. Military Retirement and Other Federal Employment Benefits
The Department applies SFFAS No. 33, Pensions, Other Retirement Benefits, and Other
Postemployment Benefits: Reporting the Gains and Losses from Changes in Assumptions and
Selecting Discount Rates and Valuation Dates, in selecting the discount rate and valuation date
used in estimating actuarial liabilities. In addition, gains and losses from changes in long-term
assumptions used to estimate the actuarial liability are presented separately on the Statement of
Net Cost. Refer to Note 7, Military Retirement and Other Federal Employment Benefits and
Note 10, Disclosures Related to the Statement of Net Cost, for additional information.




                                                 44
DoD MRF Notes to the Principal Financial Statements____________________

1.N. Estimates
The preparation of financial statements in conformity with accounting principles generally
accepted in the United States of America requires management to make estimates and
assumptions that affect the reported amounts of assets, liabilities and changes therein, disclosure
of contingent assets and liabilities, and the actuarial present value of accumulated plan benefits at
the date of the financial statements. Actual results could differ from those estimates.

1.O. Actuarial Information
The MRF financial statements present the unfunded actuarial liability determined as of the end
of the fiscal year based on population information as of the beginning of the year and updated
using accepted actuarial techniques. The “projected benefit obligation” method is used as
required by SFFAS No. 5, Accounting for Liabilities of the Federal Government.

1.P. Reclassifications
Certain FY 2012 amounts in the Statements of Budgetary Resources have been reclassified to
conform to the FY 2013 presentation.

1.Q. Significant Events
Change in Accounting Principle
During FY 2013, the MRF implemented Statement of Federal Financial Accounting Standards
(SFFAS) No. 43: Funds from Dedicated Collections: Amending Statement of Federal Financial
Accounting Standards 27, Identifying and Reporting Earmarked Funds. SFFAS 43 provides
clarifying language to be used by reporting entities when classifying funds and provides
additional reporting alternatives for financial statement presentation and note disclosure. Refer
to Note 11, Disclosures Related to the Statements of Changes in Net Position and Note 15,
Restatements, for additional information.

Note 2. Nonentity Assets
                                                                                Restated
As of September 30                                 2013                          2012
(Amounts in thousands)
   Nonfederal Assets
      Accounts Receivable              $                        1,801   $                    1,770
      Total Nonfederal Assets                                   1,801                        1,770

   Total Nonentity Assets                                       1,801                        1,770

  Total Entity Assets                                     483,490,933                  427,955,698

  Total Assets                         $                  483,492,734   $              427,957,468


Information Related to Nonentity Assets
Nonentity assets are assets for which the MRF maintains stewardship accountability and
responsibility to report but are not available for MRF’s operations.

Nonfederal Assets, Accounts Receivable, represent the amount of interest, penalties, and
administrative charges to be collected by MRF on behalf of the U.S. Treasury. Once collected,

                                                 45
DoD MRF Notes to the Principal Financial Statements____________________

this amount is transferred to the appropriate U.S. Treasury receipt account. This amount is offset
by a corresponding custodial liability for MRF reported in Note 8, Other Liabilities.


Note 3. Fund Balance with Treasury

As of September 30                                  2013                         2012
 (Amounts in thousands)


   Fund Balances
     Trust Funds                         $                      25,151   $                  23,014
     Total Fund Balances                 $                      25,151   $                  23,014

   Fund Balances Per Treasury Versus
   Agency
     Fund Balance per Treasury           $                      25,151   $                  23,014
      Fund Balance per MRF                                      25,151                      23,014

   Reconciling Amount                    $                           0   $                       0
Status of Fund Balance with Treasury

As of September 30                                  2013                         2012
 (Amounts in thousands)
   Unobligated Balance
     Unavailable                                           416,190,005                  371,657,464

   Obligated Balance not yet
   Disbursed                             $                   4,443,548   $                4,052,096

   NonFBWT Budgetary
   Accounts                              $              (420,608,402)    $           (375,686,546)

   Total                                 $                     25,151    $                  23,014

Information Related to Status of Fund Balance with Treasury
The Status of FBWT reflects the budgetary resources to support FBWT and is a reconciliation
between budgetary and proprietary accounts. It primarily consists of unobligated and obligated
balances. The balances reflect the budgetary authority remaining for disbursement against
current or future obligations.

Unobligated Balance is classified as available or unavailable and represents the cumulative
amount of budgetary authority that has not been set aside to cover outstanding obligations. The
unavailable balance, which consists primarily of funds that are temporarily precluded from
obligation by law, is invested in U.S. Treasury securities. The unobligated balance for the MRF
is restricted for use by the public law that established the fund and becomes available without
further congressional action.

Obligated Balance not yet Disbursed represents the amount of earned and accrued pension and
annuity payments. The MRF balance represents benefits payable on October 1, 2013. The MRF


                                               46
DoD MRF Notes to the Principal Financial Statements____________________

Non-FBWT Budgetary Accounts balance reduces the Status of FBWT and consists primarily of
investments in U.S. Treasury securities.


Note 4. Investments and Related Interest
As of September 30                                                     2013
                                                                    Amortized
                                                Amortization                        Investments,          Market Value
                                   Cost                            (Premium) /
                                                  Method                                Net                Disclosure
                                                                     Discount
(Amounts in thousands)
  Intragovernmental
  Securities
    Nonmarketable,
    Market-Based
      Military Retirement                         Effective
      Fund                    $   494,977,723     Interest     $     (15,416,930)   $   479,560,793   $      522,376,591
      Total Nonmarketable,
      Market-Based                494,977,723                        (15,416,930)       479,560,793          522,376,591

    Accrued Interest                3,843,922                                             3,843,922            3,843,922
    Total
    Intragovernmental
    Securities                $   498,821,645                  $     (15,416,930)   $   483,404,715   $      526,220,513

                                                                     Restated
As of September 30                                                     2012
                                                                    Amortized
                                                Amortization                        Investments,          Market Value
                                   Cost                            (Premium) /
                                                  Method                                Net                Disclosure
                                                                     Discount

 Intragovernmental
 Securities
    Nonmarketable,
    Market-Based
      Military Retirement                         Effective
      Fund                    $   435,206,453     Interest     $     (11,012,435)   $   424,194,018   $      536,544,625
       Total Nonmarketable,
       Market-Based               435,206,453                        (11,012,435)       424,194,018          536,544,625

    Accrued Interest                3,673,431                                             3,673,431            3,673,431
    Total
    Intragovernmental
    Securities                $   438,879,884                  $     (11,012,435)   $   427,867,449   $      540,218,056


Information Regarding Investments and Related Interest
The MRF purchases and redeems nonmarketable market-based U.S. Treasury securities that
fluctuate in tandem with the current selling price of the equivalent marketable security on the
open market. The MRF purchases securities with the intent to hold until maturity; therefore,
balances are not adjusted to market value. In rare cases, cash flow or other requirements dictate
that securities originally intended to be held to maturity must be sold prior to their stated
maturity date. During FY 2013, the following securities held by MRF were sold prior to their
stated maturity date, to provide cash needed to pay, or be available to pay, benefit liabilities:




                                                        47
DoD MRF Notes to the Principal Financial Statements____________________

(Amounts in thousands)
Security Number                            912828JG6                     912828BH2
Stated Maturity Date                        7/31/2013                     8/15/2013
Date of Early Sale                          5/29/2013                     7/30/2013

Par                                         $968,500                      $450,000
Accrued Interest                               10,655                         8,717
Original Premium (Discount)                    22,699                        (6,188)
Amortization                                  (17,390)                        6,151
Basis                                       $984,464                      $458,681

Proceeds from early sale
Principal                                   $968,500                     $450,000
Premium                                         5,448                         703
Interest                                       10,655                       8,717
Total                                        $984,603                    $459,420

Gain                                             $138                         $740

In addition to the above early redemptions, a conventional security purchased in October 2013
was redeemed early and an inflation-protected security was immediately purchased, in order to
comply with the investment purchases approved by the DoD Investment Board. Below are the
details of this early redemption:

(Amounts in thousands)
Security Number                            912810EQ7
Stated Maturity Date                        8/15/2023
Date of Early Sale                          1/30/2013

Par                                       $5,000,000
Accrued Interest                             142,663
Original Premium                           2,257,813
Amortization                                  (62,409)
Basis                                     $7,338,067

Proceeds from early sale
Principal                                 $5,000,000
Premium                                    1,995,313
Interest                                     142,663
Total                                     $7,137,976

Loss                                        $200,091

Even though the early redemption resulted in a loss to the fund in FY 2013, projections based
upon data available at the time of early redemption show holding the inflation-protected security



                                               48
DoD MRF Notes to the Principal Financial Statements____________________

to maturity will result in returns exceeding the FY 2013 loss and the projected returns from the
original conventional security.

The cash generated from investments is deposited in the U.S. Treasury, which uses the cash for
general government purposes. The U.S. Treasury securities are issued to MRF as evidence of its
receipts and are an asset to the MRF and a liability to the U.S. Treasury. Since MRF and the
U.S. Treasury are both parts of the Federal Government, these assets and liabilities offset each
other from the standpoint of the Federal Government as a whole. For this reason, they do not
represent an asset or a liability in the U.S. governmentwide financial statements.

The U.S. Treasury securities provide MRF with authority to draw upon the U.S. Treasury to
make future benefit payments or other expenditures. When MRF requires redemption of these
securities to make expenditures, the government will finance them from accumulated cash
balances, by raising taxes or other receipts, borrowing from the public or repaying less debt, or
curtailing other expenditures. The Federal Government uses the same method to finance all
other expenditures.

At the semiannual meetings, the Department of Defense Investment Board approves the strategy
for the type of securities purchased by MRF. These securities can include U.S. Treasury bills,
notes, bonds, inflation-protected securities, and overnight certificates. The U.S. Treasury bills
are short-term securities with maturities of one year or less and are purchased at a discount. The
U.S. Treasury notes have maturities of at least one year, but not more than ten years, and are
purchased at either a discount or premium. The U.S. Treasury bonds are long-term securities
with maturities of ten years or more and are purchased at either a discount or premium. The
U.S. Treasury Inflation-Protected Securities (TIPS) provide protection against inflation and are
purchased at either a discount or premium. The TIPS principal increases with inflation and
decreases with deflation, as measured by the Consumer Price Index. When TIPS mature, the
U.S. Treasury pays the adjusted principal or original principal, whichever is greater. The TIPS
amount includes inflation compensation as well as the par value of the securities. Overnight
securities are short-term securities, purchased at face value, that mature the next business day
and earn interest at the daily Federal Reserve repurchase agreement rate.

The cost of the U.S. Treasury Securities is displayed in the following table.

                  (Amounts in thousands) FY 2013 COST FY 2012 COST
                  Notes                       8,570,937   17,420,938
                  Bonds                      18,459,672   18,459,672
                  TIPS                      452,516,218  380,647,988
                  Overnight Securities       15,430,896   18,677,855
                  Total Cost               $494,977,723 $435,206,453




                                                49
 DoD MRF Notes to the Principal Financial Statements____________________


Note 5. Accounts Receivable

As of September 30                                                 2013
                                                              Allowance For
                               Gross Amount Due                                        Accounts Receivable, Net
                                                         Estimated Uncollectibles
(Amounts in thousands)
  Nonfederal
  Receivables
  (From
  the Public)              $                66,498       $                  (3,630)    $                 62,868
  Total Accounts
  Receivable               $                66,498       $                  (3,630)    $                 62,868

As of September 30                                                 2012
                                                         Allowance For Estimated
                               Gross Amount Due                                        Accounts Receivable, Net
                                                              Uncollectibles
  Nonfederal
  Receivables (From
  the Public)              $                70,100       $                   (3,095)   $                 67,005
  Total Accounts
  Receivable               $                70,100       $                   (3,095)   $                 67,005

 Information Related to Accounts Receivable
 The accounts receivable represent the MRF’s claim for payment from military retirees or their
 survivors for erroneous amounts previously paid. The MRF only recognizes an allowance for
 uncollectible amounts from the public. Allowances for uncollectible accounts due from the
 public are based upon an analysis of actual collection experience by MRF during the previous
 three years. Claims with other federal agencies are resolved in accordance with the
 Intragovernmental Business Rules.


 Note 6. Liabilities Not Covered by Budgetary Resources


 As of September 30                                               2013                           2012
  (Amounts in thousands)
    Nonfederal Liabilities
    Military Retirement and
        Other Federal Employment Benefits                            1,103,589,493                1,106,260,446
    Other Liabilities                                                          206                          192
        Total Nonfederal Liabilities                 $               1,103,589,699     $          1,106,260,638
   Total Liabilities Not Covered by
 Budgetary Resources                                 $               1,103,589,699     $          1,106,260,638
   Total Liabilities Covered by Budgetary
 Resources                                           $                   420,635,354   $            375,711,330
    Total Liabilities                                $               1,524,225,053     $          1,481,971,968


                                                         50
DoD MRF Notes to the Principal Financial Statements____________________

Information Related to Liabilities Not Covered by Budgetary Resources
The MRF’s Liabilities Not Covered by Budgetary Resources amount represents actuarial
liabilities for pension benefits for which assets are not yet available. Refer to Note 7, Military
Retirement and Other Federal Employment Benefits, for additional details and disclosures.

Nonfederal Other Liabilities represent contingent liabilities payable by the Department of
Defense for estimated death payments. These liabilities cover the retiree benefits not paid by the
Department of Veterans Affairs during the month of death. This amount is also reported on
Note 8, Other Liabilities.


 Note 7. Military Retirement Benefit Liabilities

 As of September 30                                                        2013
                                                                 (Less: Assets Available to
                                  Liabilities                                                      Unfunded Liabilities
                                                                       Pay Benefits)
 (Amounts in
 thousands)
 Pension and Health
 Benefits
   Military Retirement
   Pensions                   $         1,519,779,498        $                 (416,190,005)   $             1,103,589,493
   Total Pension and Health
   Benefits                   $         1,519,779,498        $                 (416,190,005)   $             1,103,589,493

  Other Benefits
   Other                                        4,443,548                        (4,443,548)                              0
  Total Other Benefits        $                 4,443,548    $                   (4,443,548)   $                          0
  Total Military Retirement
  and Other Federal
  Employment Benefits:        $         1,524,223,046        $                 (420,633,553)   $             1,103,589,493


 As of September 30                                                        2012
                                                                 (Less: Assets Available to
                                  Liabilities                                                      Unfunded Liabilities
                                                                       Pay Benefits)
 (Amounts in
 thousands)
 Pension and Health
 Benefits
  Military Retirement
 Pensions                     $          1,477,917,910       $                 (371,657,464)   $              1,106,260,446
  Total Pension and Health
  Benefits                    $          1,477,917,910       $                 (371,657,464)   $              1,106,260,446
  Other Benefits
  Other                                          4,052,096                       (4,052,096)                              0
  Total Other Benefits        $                  4,052,096   $                   (4,052,096)   $                          0
  Total Military Retirement
  and Other Federal
  Employment Benefits:        $          1,481,970,006       $                 (375,709,560)   $              1,106,260,446




                                                            51
DoD MRF Notes to the Principal Financial Statements____________________


 As of September 30                                                 2013
                                                          Military Retirement Pensions
 (Amounts in thousands)

 Beginning Actuarial Liability                        $                     1,477,917,910

 Plus Expenses:
    Normal Cost                                                                31,699,076
    Interest Cost                                                              67,465,566
    Plan Amendments                                                                      0
    Experience Losses (Gains)                                                (14,703,463)
    Other factors                                                                        0

 Subtotal: Expenses before Losses (Gains) from
 Actuarial Assumption Changes                                                  84,461,179

 Actuarial losses/ (gains)/ due to:
   Changes in trend assumptions                                                          0
   Changes in assumptions other than trend                                     11,906,250

 Subtotal: Losses (Gains) from Actuarial Assumption
 Changes                                                                       11,906,250
 Total Expenses                                       $                        96,367,429
 Less Benefit Outlays                                                          54,505,841

 Total Changes in Actuarial Liability                 $                        41,861,588
 Ending Actuarial Liability                           $                     1,519,779,498


The $11.9 billion increase due to changes in assumptions other than trend is comprised of a
$27.2 billion increase caused by a lower interest rate and associated changes in long-term salary
increase and inflation assumptions related to requirements prescribed by Statement of Federal
Financial Accounting Standards (SFFAS) 33, Pensions, Other Employment Benefits, and Other
Postemployment Benefits: Reporting the Gains and Losses from Changes in Assumptions and
Selecting Discount Rates and Valuation Dates, offset by a $15.3 billion decrease due to changes
in demographic assumptions. Detailed disclosure is discussed in Table 5 of the MD&A:
Analysis of Financial Statements.

Information Related to Military Retirement Benefit Liabilities
The MRF accumulates funds used to pay pensions to retired military personnel and annuities to
their survivors. The Military Retirement System is a single-employer, defined benefit plan.

The schedules above reflect two distinct types of liabilities related to Military Retirement and
Other Federal Employment Benefits. The line entitled “Military Retirement Pensions” represents
the actuarial liability for future pension benefits not yet paid; i.e., the present value of future
benefits less the present value of future normal costs. The line entitled “Other” represents
retirement benefits due and payable on the first day of the next reporting period.

This schedule also computes "unfunded liabilities”, i.e. liabilities not covered by budgetary
resources. The assets presented in this schedule differ from those reported on the balance sheet.


                                                      52
DoD MRF Notes to the Principal Financial Statements____________________

The balance sheet assets consist primarily of investments, the value of which is based on the
fully amortized cost or “book value” of the securities (see Note 4, Investments and Related
Interest). The value of assets available to pay benefits presented in the above schedule is based
on available budgetary funding. The difference between investments and assets available to pay
benefits is the premium on U.S. Treasury Securities. At the time of purchase, budgetary funding
is reduced by the premium on U.S. securities because the premium on securities is no longer a
budgetary resource at the time of purchase.

Effective FY 2010, the MRF implemented requirements of SFFAS No. 33, which directs that the
interest rate, underlying inflation rate, and other economic assumptions be consistent with one
another. A change in the interest rate may cause other assumptions to change as well. For the
September 30, 2013, financial statement valuation, the application of SFFAS No. 33 required the
DoD Office of the Actuary (OACT) to change the long-term inflation (CPI) and salary increase
assumptions to be consistent with the underlying Treasury spot rates used in the valuation.

The MRF actuarial liability is calculated at the end of each fiscal year.

Actuarial Cost Method
Per statute, the MRF is funded using the Aggregate Entry-Age Normal (AEAN) method. Per the
Federal Accounting Standards Advisory Board (FASAB), AEAN is also used to compute the
actuarial liabilities reported above. AEAN is a method whereby the costs of future retirement
and survivor benefits for a new-entrant cohort are spread over the projected salaries of that
group.

Projected Revenues
The MRF receives projected revenues from three sources: (1) interest earnings on MRF assets,
(2) monthly contributions from the Military Services, and (3) an annual contribution from the
U.S. Treasury. The contribution from the U.S. Treasury is paid into the MRF at the beginning of
each fiscal year and represents the amortization of the unfunded liability for service performed
before October 1, 1984, as well as the amortization of subsequent actuarial gains and losses.
Starting October 1, 2004, Public Law 108-136 requires a Treasury contribution for the normal
cost amount for the concurrent receipt provisions under Public law 108-136, Sections 1413a and
1414, in addition to the unfunded liability amortization payment. The DoD Board of Actuaries
(the Board) approves methods and assumptions used to determine the amounts for contributions
by the U.S. Treasury and the Military Services, and the Secretary of Defense directs the
Secretary of Treasury to make the required Treasury payment.

Assumptions
The Board sets the long-term economic assumptions for each valuation performed for funding
purposes. Prior to FY 2010, the same long-term assumptions were used for the financial
statement valuations. The distinction between the two different valuations is discussed below.

For the FY 2013 financial statement valuation, the long-term assumptions were 4.3% interest,
2.4% CPI, and 2.8% salary increase. (For the FY 2013 funding valuation, the long-term
assumptions were 5.5% interest, 3.0% CPI, and 3.5% salary increase. Note that the term



                                                 53
DoD MRF Notes to the Principal Financial Statements____________________

“interest” refers here to the interest rate used to discount cash flows. The terms ‘interest rate’
and ‘discount rate’ are often used interchangeably in this context.)

For the FY 2012 financial statement valuation, the long-term assumptions were 4.6% interest,
2.6% CPI, and 3.0% salary increase. (For the FY 2012 funding valuation, the long-term
assumptions were 5.5% interest, 3.0% CPI, and 3.5% salary increase.)

The difference in the long-term assumptions between funding and financial statement valuations
is attributable to SFFAS No. 33. The standard is discussed further below. Other assumptions
used to calculate the actuarial liabilities, such as mortality and retirement rates, were based on a
blend of actual experience and future expectations. Because of reporting deadlines, the current
year actuarial present value of projected plan benefits for the MRF financial statement is rolled
forward from the prior year valuation results as reported in the OACT report “Valuation of the
Military Retirement System” using accepted actuarial methods. Adjustments are made as
necessary to put liabilities on a financial statement basis.

In the selection of the valuation date, SFFAS No. 33 allows for actuarial liabilities to be rolled
forward from the prior year valuation results. The effects of changes during the year in major
factors such as actual pay raises and cost of living adjustments have been incorporated in the
roll-forward adjustment. In calculating the FY 2013 ”roll-forward” actuarial liability, the
following assumptions were used:

                              Inflation (CPI)          Salary                        Interest
Fiscal Year 2013               1.7% (actual)           1.7% (actual)                 4.6%
Fiscal Year 2014               2.0% (estimated)        1.0% (estimated)              4.3%
Long-Term                      2.4%                    2.8%                          4.3%

For purposes of the Fund’s financial reporting, this roll-forward process is applied annually.

Contributions to the MRF are calculated so as to maintain the Fund on an actuarially sound basis.
This means that there will be sufficient funds to make all benefit payments to eligible recipients
each year, and that the Fund balance is projected to eventually equal the actuarial liability; i.e.,
all unfunded liabilities are liquidated. In order to accomplish this objective, normal costs are
calculated to fully fund the current year projected liability for military personnel. In addition,
amortization payments are calculated to fund liabilities that were present at plan inception (initial
unfunded liability) and any emerging actuarial gains or losses.

The initial unfunded liability of the program was amortized over a 50-year period through the FY
2007 payment. At its August 2007 meeting, the Board decided to decrease the period over which
the initial unfunded liability is fully amortized by 8 years. Their decision was made to ensure
that, at a minimum, the amortization payment covered the interest on the unfunded actuarial
liability. Therefore, starting with the FY 2008 payment, the initial unfunded liability is being
amortized over a 42-year period, with the last payment expected to be made October 1, 2025.
All subsequent gains and losses experienced by the system are amortized over a 30-year period.
Chapter 74 of Title 10, United States Code (U.S.C.), requires that the Board approve the methods
and assumptions used to (1) compute actuarial costs and liabilities, (2) amortize the initial

                                                  54
DoD MRF Notes to the Principal Financial Statements____________________

unfunded liability, and (3) amortize all actuarial gains and losses. The Board is a Federal
Advisory Committee appointed by the Secretary of Defense.

SFFAS No. 33, as published on October 14, 2008 by FASAB, requires the use of a yield curve
based on marketable U.S. Treasury securities to determine the interest rates used to calculate
actuarial liabilities for federal financial statements. Historical experience is the basis for
expectations about future trends in marketable U.S. Treasury securities.

The statement is effective for periods beginning after September 30, 2009, and applies to
information provided in general purpose federal financial statements. It does not affect statutory
or other special-purpose reports, such as pension or Other Retirement Benefit reports. It requires
a minimum of five periodic rates for the yield curve input and consistency in the number of
historical rates used from period to period. It permits the use of a single average interest rate if
the resulting present value is not materially different from what would be obtained using the
yield curve.

OACT annually performs two MRF valuations. The primary one is for funding purposes—this
valuation is governed by Chapter 74 of Title 10 U.S.C. and must use methods and assumptions
approved by the Board. The other is for financial statement purposes and is governed by
FASAB standards. For the September 30, 2013, financial statement valuation, OACT
determined an SFFAS equivalent interest rate of 4.3% by using quarterly zero coupon Treasury
spot rates (a series published by the Office of Thrift Supervision through December 31, 2011,
and Department of Treasury-Office of Economic Policy thereafter) from June 30, 2003, to March
31, 2013. In the summer of 2013, the Board approved an interest rate of 5.5% for the September
30, 2013, funding valuation, which differs from the SFFAS equivalent rate by 120 basis points.
Using the SFFAS No. 33 long-term economic assumptions increases the MRF actuarial liability
by 10%.

Military Services Contributions
The contributions from the Military Services are the product of basic pay and normal cost
percentages (NCPs) determined in accordance with the methods and assumptions approved by
the Board. Basic pay generally increases each year, and on January 1, 2013, there was a 1.7%
across-the-board basic pay increase. The NCPs for FY 2013 were promulgated by the Board in
their July 2011 letter: 32.1% (full-time) and 24.4% (part-time). The NCPs for FY 2014 were
promulgated by the Board in their July 2012 letter: 32.4% (full-time) and 24.5% (part-time).
The above NCPs are based on the Board’s funding valuation, not the financial statement
valuation (SFFAS No. 33), and are calculated without regard to the concurrent receipt provisions
of Sections 1413a and 1414 of Title 10, U.S.C.

Market Value of Investments
The market value of MRF's nonmarketable market-based securities as of September 30, 2013
totaled $526.2 billion as reflected in Note 4, Investments and Related Interest.




                                                55
DoD MRF Notes to the Principal Financial Statements____________________


Note 8. Other Liabilities
As of September 30                                                      2013
                                                Current                 Noncurrent
                                                                                              Total
                                                Liability                Liability
(Amounts in thousands)
  Intragovernmental
   Custodial Liabilities                                    1,801                     0               1,801
  Total Intragovernmental Other
  Liabilities                           $                   1,801   $                 0   $           1,801
  Nonfederal
  Contingent Liabilities                                     206                      0                206

   Total Nonfederal Other Liabilities   $                    206    $                 0   $            206

  Total Other Liabilities               $                   2,007   $                 0   $           2,007
As of September 30
                                                                        2012
                                                Current                  Noncurrent
                                                                                              Total
                                                Liability                 Liability
(Amounts in thousands)
   Intragovernmental
  Custodial Liabilities                                     1,770                     0           1,770
  Total Intragovernmental Other
  Liabilities                               $               1,770   $                 0   $       1,770
   Nonfederal
   Contingent Liabilities                                    192                      0                192

   Total Nonfederal Other Liabilities   $                    192    $                 0   $            192

   Total Other Liabilities              $                   1,962   $                 0   $       1,962


Information Related to Other Liabilities
Intragovernmental Custodial Liabilities represent a liability for the MRF comprised of interest,
penalties, and administrative charges to be collected on behalf of U.S. Treasury. This amount is
also reported as a nonfederal accounts receivable on Note 2, Nonentity Assets.

Nonfederal Other Liabilities represent contingent liabilities payable by the DoD for estimated
death payments. These liabilities cover the retiree benefits not paid by the Department of
Veterans Affairs during the month of death. This amount is also reported on Note 6, Liabilities
not Covered by Budgetary Resources and on Note 9, Commitments and Contingencies




                                                   56
DoD MRF Notes to the Principal Financial Statements____________________


 Note 9. Commitments and Contingencies

Information Related to Commitments and Contingencies
Currently there are no known contingent liabilities pending legal action.

The MRF has an estimated contingent liability of $206 thousand that is measurable and probable
and, therefore, has been recorded in the accounting records. These liabilities cover the retiree
benefits not paid by the Department of Veterans Affairs during the month of death. This amount
is also reported on Note 8, Other Liabilities.

The DOD MRF has not historically applied Public Law 94-106 (known as the TOWER
Amendment) to conventional High 36 Retirements of Military Members (from Public Law 99-
348). This was identified as legally insufficient by DODIG auditors in FY 2012. TOWER
Amendment applications (also known as look backs) should be applied at the time of retirement,
as well as at the time of the Cost of Living Adjustment (COLA) after retirement. As these look
backs were not being applied to High 36 retirees, there is a contingent loss to the fund
representing corrective retroactive payments to the effected members.

There is legislation currently under consideration by the United States Congress (HR 1960) to
retroactively eliminate the TOWER applications at time of COLA. Whether or not this
legislation becomes law in FY 2014 will directly affect the contingency loss to the MRF. Should
this legislation become law as currently written (which management has deemed very likely),
then the retroactive corrective payments would be greatly reduced in measure. The range of the
potential contingency loss due to these corrective payments would (approximately) be between
$65,000 and $90,000,000 depending on the legal outcome of HR 1960.


Note 10. Disclosures Related to the Statements of Net Cost
Intragovernmental Costs and Exchange Revenue

As of September 30                                            2013                 2012
(Amounts in thousands)

Military Retirement Benefits
  Gross Cost
        Intragovernmental Cost                          $            200,091   $              0
        Nonfederal Cost                                          84,627,858          92,280,886
        Total Cost                                      $        84,827,949    $     92,280,886
  Earned Revenue
       Intragovernmental Revenue                        $      (110,016,380)   $   (104,506,237)
       Total Revenue                                    $      (110,016,380)   $   (104,506,237)
  Losses/(Gains) from Actuarial Assumption Changes
  for Military Retirement Benefits                      $        11,906,250    $     77,190,242
Total Net Cost                                          $       (13,282,181)   $     64,964,891



                                                57
DoD MRF Notes to the Principal Financial Statements____________________

Information Related to the Statements of Net Cost
The Statements of Net Cost (SNC) represents the net cost of programs and organizations of the
Federal Government that are supported by appropriations or other means. The intent of the SNC
is to provide gross and net cost information related to the amount of output or outcome for a
given program or organization administered by a responsible reporting entity.

Intragovernmental costs and revenue represent transactions made between two reporting entities
within the federal government. Public costs and revenues are exchange transactions made
between the reporting entity and a nonfederal entity.

Intragovernmental Earned Revenue is comprised of the following amounts:

Intragovernmental Earned Revenues for Program Costs

(Amounts in thousands)                                          FY 2013           FY 2012

1. Military Service Contributions as a Percentage of Base $     20,528,294 $      21,863,491
   Pay
2. Annual Treasury Unfunded Liability Payment                   67,733,000        64,751,000
3. Annual Treasury Normal Cost Payment                           6,791,000         5,376,000
4. Interest on Investments                                      14,963,208        12,515,746
5. Gains on Disposition of Investments                                 878                 0

Total                                                      $ 110,016,380 $ 104,506,237

The MRF complies with SFFAS No. 33, Pensions, Other Retirement Benefits, and Other
Postemployment Benefits: Reporting the Gains and Losses from Changes in Assumptions and
Selecting Discount Rates and Valuation Dates. The standard requires the separate presentation
of gains and losses from changes in long-term assumptions used to estimate liabilities associated
with pensions, other retirement and other postemployment benefits on the SNC. The SFFAS No
33 also provides a standard for selecting the discount rate and valuation date used in estimating
these liabilities. The DoD Office of the Actuary changed long-term inflation and salary increase
assumptions to be consistent with the underlying Treasury spot rates used in the valuation.


Note 11. Disclosures Related to the Statements of Changes in Net Position

There was a difference of $54.7 billion between Appropriations Received on the Statements of
Changes in Net Position (SCNP) and Appropriations on the Statements of Budgetary Resources
(SBR). The MRF records contributions as revenue on the SCNP, while contributions are
recorded as Appropriations on the SBR. This is in accordance with Office of Management and
Budget reporting requirements. Refer to Note 12, Disclosures Related to the Statements of
Budgetary Resources for further information.

During FY 2013, MRF implemented Statement of Federal Financial Accounting Standards
(SFFAS) 43, Funds from Dedicated Collections: Amending SFFAS 27, Identifying and

                                               58
DoD MRF Notes to the Principal Financial Statements____________________

Reporting Earmarked Funds. SFFAS 43 provides clarifying language when classifying funds
and additional reporting alternatives for financial statement presentation and note disclosure.
Prior year balances were restated to comply with the current presentation. Refer to Note 15,
Restatements, for additional information.


Note 12. Disclosures Related to the Statements of Budgetary Resources

As of September 30                                      2013                     2012
(Amounts in thousands)

  Net Amount of Budgetary Resources
  Obligated for Undelivered Orders at the End
  of the Period                                 $                  0.00   $                0.00

Information Related to the Statements of Budgetary Resources
The MRF reported $54.7 billion of direct obligations that are exempt from apportionment.

The Statements of Budgetary Resources (SBR) includes intraentity transactions because the
statements are presented as combined.

Public Law 98-94, The Defense Authorization Act of 1984, authorized MRF and provided a
permanent, indefinite appropriation.

The MRF’s unobligated balances of budget authority represent the portion of trust fund receipts
collected in the current fiscal year that exceeds (1) the amount needed to pay benefits or other
valid obligations and (2) the receipts temporarily precluded from obligation by law. The
receipts, however, are assets of MRF and are available for obligation as needed in the future.

There was a difference of $54.7 billion between Appropriations Received on the Statements of
Changes in Net Position (SCNP) and Appropriations on the SBR. The MRF records
contributions as revenue on the SCNP, while contributions are recorded as Appropriations on the
SBR. This is in accordance with Office of Management and Budget reporting requirements.




                                                59
DoD MRF Notes to the Principal Financial Statements____________________

Note 13. Reconciliation of Net Cost of Operations to Budget


As of September 30
                                                                   2013            2012
(Amounts in thousands)
Resources Used to Finance Activities:
Budgetary Resources Obligated:
   Obligations incurred                                    $    54,668,338     $    52,495,209
   Obligations net of offsetting collections               $    54,668,338     $    52,495,209
     and recoveries
   Less: Offsetting receipts (-)                               (67,733,000)        (64,751,000)
   Net obligations                                         $   (13,064,662)    $   (12,255,791)
 Total resources used to finance activities                $   (13,064,662)    $   (12,255,791)
Resources Used to Finance Items not Part of the Net Cost
of Operations:
 Total resources used to finance the Net Cost              $   (13,064,662)    $   (12,255,791)
     of Operations
Components of the Net Cost of Operations that will not
Require or Generate Resources in the Current Period:

 Components Requiring or Generating Resources in Future
 Period:

 Other (+/-)                                                    41,861,602         116,995,417
   Total components of Net Cost of Operations              $    41,861,602     $   116,995,417
    that will Require or Generate Resources in
    future periods
 Components not Requiring or Generating Resources:
 Depreciation and amortization                             $              0    $             0
 Revaluation of assets or liabilities (+/-)                         199,213                  0
 Other (+/-)
     Trust Fund Exchange Revenue                               (42,282,502)        (39,755,237)
      Cost of Goods Sold                                                  0                   0
     Operating Material and Supplies Used                                 0                   0
     Other                                                            4,168            (19,498)
 Total Components of Net Cost of Operations                $   (42,079,121)    $   (39,774,735)
    that will not Require or Generate Resources
 Total components of Net Cost of                           $       (217,519)   $    77,220,682
    Operations that will not Require or
    Generate Resources in the current period
 Net Cost of Operations                                    $   (13,282,181)    $    64,964,891


Information Related to the Reconciliation of Net Cost of Operations to Budget
The following note schedule lines are presented as combined instead of consolidated due to
intraagency budgetary transactions not being eliminated:

•      Obligations Incurred.
•      Obligations Net of Offsetting Collections and Recoveries.
•      Less: Offsetting Receipts.
•      Net Obligations.

                                               60
DoD MRF Notes to the Principal Financial Statements____________________


Components Requiring or Generating Resources in Future Periods – Other represents the change
in future funded expenses that will not become due and payable until an annuitant becomes
entitled to receive benefit payment.

Components not Requiring or Generating Resources – Other displays the change in accounts
receivable since the beginning of both FY 2013 and FY 2012. These amounts represent refunds
receivable and changes in bad debt for erroneous payments to military retirees or their survivors.


Note 14. Subsequent Events


Subsequent events have been evaluated from the balance sheet date through December 9, 2013
which is the date of the financial statements were available to be issued. Management
determined that there were no other items to disclose as of September 30, 2013.


Note 15. Restatements


During FY 2013, MRF implemented Statement of Federal Financial Accounting Standards
(SFFAS) 43, Funds from Dedicated Collections: Amending SFFAS 27, Identifying and
Reporting Earmarked Funds. SFFAS 43 provides clarifying language when classifying funds
and additional reporting alternatives for financial statement presentation and note disclosure.
Prior year balances were restated to comply with the current presentation. The restatement had
no dollar value impact to any MRF balance; the restatement removed the “Funds From
Dedicated Collections” (formerly “Earmarked Funds”) attribute from all MRF USSGL account
balances and related financial statement and footnote presentations. Refer to Note 11,
Disclosures Related to the Statements of Changes in Net Position for additional information.




                                               61
